<html>
<title> - FROM THE INSIDE OUT: A LOOK AT CLAIMS REPRESENTATIVES' ROLE IN THE DISABILITY CLAIMS PROCESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  FROM THE INSIDE OUT: A LOOK AT CLAIMS REPRESENTATIVES' ROLE IN THE 
                       DISABILITY CLAIMS PROCESS

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, APRIL 18, 2012

                               __________

                           Serial No. 112-57

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
74-176                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 18, 2012

                                                                   Page

From The Inside Out: A Look At Claims Representatives' Role In 
  The Disability Claims Process..................................     1

                           OPENING STATEMENTS

Chairman Jeff Miller.............................................     1
    Prepared Statement of Chairman Miller........................    36
Hon. Silvestre Reyes, Acting Ranking Democratic Member...........     2
    Prepared Statement of Hon. Reyes.............................    37

                               WITNESSES

Mr. Jeffrey Hall, Assistant National Legislative Director, 
  Disabled American Veterans.....................................     4
    Prepared Statement of Mr. Hall...............................    38
    Executive Summary of Mr. Hall................................    42
Mr. James Wear, Assistant Director for Veterans Benefits Policy, 
  Veterans of Foreign Wars.......................................     6
    Prepared Statement of Mr. Wear...............................    43
Mr. Randall Fisher, Department Service Officer of Kentucky, The 
  American Legion................................................     8
    Prepared Statement of Mr. Fisher.............................    46
    Executive Summary of Mr. Fisher..............................    49
Mr. Paul Sullivan, Managing Director for Public Affairs and 
  Veteran Outreach, Bergmann and Moore, LLC......................    22
    Prepared Statement of Mr. Sullivan...........................    50
Mr. Tom Murphy, Director of Compensation Service, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs...    27
    Prepared Statement of Mr. Murphy.............................    54

                   MATERIALS SUBMITTED FOR THE RECORD

Mr. Carl Blake, National Legislative Director, Paralyzed Veterans 
  of America.....................................................    55


  FROM THE INSIDE OUT: A LOOK AT CLAIMS REPRESENTATIVES' ROLE IN THE 
                       DISABILITY CLAIMS PROCESS

                       Wednesday, April 18, 2012

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Johnson, Runyan, Benishek, 
Reyes, Michaud, Braley, McNerney, Donnelly, Carnahan.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. Good morning, everybody. Welcome to this 
morning's hearing, a timely topic I am sure. We are here today 
to review the veterans service organizations' roles in the 
disability claims process. Initially I want to thank The 
American Legion, who are here today, for bringing this topic to 
the Committee's attention. This topic was noted in a letter 
that was sent to me by your commander and the veterans service 
officers on what the VSO's role is in the claims processing 
system. I know it is integral in the claims process. I want to 
begin today on a positive note in discussing some of the 
tremendous parts that VSOs do play on behalf of our Nation's 
veterans.
    VSOs fulfill an invaluable service to our veterans by 
aiding them in navigating a complex and confusing system to 
receive the benefits that they have earned. As I have mentioned 
numerous times in the past, and other Members of this Committee 
have as well, our veterans put their life on the line to defend 
our liberties and our freedom. Just as our servicemen and women 
fulfilled their duty to serve and defend our country we have an 
equal duty to ensure that they receive what they have earned. 
VSOs are helping to fulfill this commitment everyday by helping 
veterans navigate the claims process, very often enabling 
veterans to obtain earned benefits. And they provide this 
service free of charge. In addition, being represented 
throughout the claims process is effective. Study after study 
shows that veterans with representation do in fact have a 
greater chance at recovering their earned benefits than if they 
are not represented by a VSO, an agent, or an attorney.
    I would also like to recognize a positive change in recent 
years which has involved a move towards increased cooperation 
and partnership between the VA and the veterans service 
organizations. Placing the veteran and his or her needs at the 
center of the objective facilitates the spirit of cooperation 
that we are here today to examine and hopefully to improve. I 
hope to see continued progress in this direction going forward.
    However, part of this Committee's function is oversight, 
ensuring that everything is done to assist our veterans to the 
full extent that our resources can realistically permit. To 
this end, and in the spirit of cooperation, it is my hope that 
we can explore what can be done to improve VSO representation 
throughout all stages of the disability claims process, as well 
as surveying some of VBA's weaknesses in this regard. For 
example, there are enormous challenges with the evolving 
structure of the Veterans Benefits Administration. Most of 
these changes have originated in the process of bringing VBA 
into the 21st Century. These adjustments present increasing 
challenges for VSOs and VBA. We have a duty to explore the 
limitations of VSO resources when presented with an increased 
workload resulting from these transitions, as well as the 
result of sacrificing quality in working a claim due to the 
sheer volume and increased complexity of the claims that they 
are receiving.
    I also intend to investigate some of the weaknesses in the 
claims process itself with respect to the Veterans Benefits 
Administration. The track record over several decades of VBA in 
implementing sweeping improvements to its claims process has 
been substandard. Now with two wars winding down, and an 
increasingly aging veteran population, it is imperative that 
the much touted technological and training improvements are set 
up correctly and are used efficiently.
    I have vowed that this Committee will continue vigorous 
oversight to see these goals are accomplished and I reaffirm 
that promise today before each of you here. And to this end I 
would like to thank all of our witnesses for their attendance 
at this morning's hearing as well as for their ongoing service 
to our Nation's veterans.
    I now turn to the Ranking Member for his opening statement. 
And as you know Mr. Reyes your full statement can be entered 
into the record if you choose to use a synopsis. You are 
recognized.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

          OPENING STATEMENT OF HON. SILVESTRE REYES, 

                ACTING RANKING DEMOCRATIC MEMBER

    Mr. Reyes. Thank you, Mr. Chairman. Let me add my welcome 
and thanks for all your work on behalf of our veterans. Mr. 
Chairman, I also want to thank you for holding this very 
important hearing. Today we have many well informed 
stakeholders in this room with us. I thank the VSO witnesses 
for being here and I also want to thank you for your tireless 
effort on behalf of our Nation's veterans.
    I see today's hearing as a timely opportunity to focus on 
bringing more solutions to the table about how to improve the 
disability claims processing system to produce better outcomes 
for our veterans. I think, Mr. Chairman, we all know what the 
problem is. Over 1.3 million claims and appeals jammed in a 
flawed processing system in an organization with a current 
management culture that often overemphasizes production over 
quality.
    Well quantity over quality will not work when it comes to 
our veterans. We need to get claims done right the first time, 
as if a do over was not an option. There is no shortcut of 
getting around the basics of having well trained employees who 
are empowered with the right tools and the right systems to get 
the job done right the first time. That is why I still remain 
concerned that the work credit system may not keep the focus on 
the veterans but on turning out work.
    VA's claims backlog problems are not new and many of VA's 
current ``new solutions'' have already been done in different 
iterations. What is different is that we have veterans 
returning home from, as you mentioned Mr. Chairman, two wars 
that we hope are winding down and have serious signature 
injuries like PTSD and Traumatic Brain Disorder.
    At last 26 percent of our returning veterans will suffer 
from one of these injuries which require a huge commitment. We 
have veterans committing suicide in shameful numbers, the most 
recent figure being 18 veterans every single day. That is one 
veteran every 80 minutes, over 6,500 a year. That means that 
before this hearing is over a veteran will have taken his or 
her life. That has to break our hearts.
    Having any system take the current claims processing system 
where over 65 percent of claims are in backlog should also 
break our heart. We need to get this right so that no claims 
are languishing and that veterans, their families, and 
survivors get the benefits that they have earned and deserve 
without delay.
    Like many of you I agree with Ranking Member Filner that VA 
should remember that VA should stand for Veteran Advocate and 
not Veteran Adversary. To that end I am glad that we now have a 
secretary who understands that part of VA's mission is 
advocacy. I understand that since passage of Public Law 110-
389, the Veterans Benefits Improvement Act of 2008, the 
Secretary has been much more receptive and inclusive of our VSO 
partners. He has done this by including them in meetings on 
critical issues, including larger initiatives like Veterans 
Benefits Management System and eBenefits. I understand that 
there is even a stakeholder enterprise portal well underway 
which may allow the thousands of service officers, including 
our state, local, and county service officers, to have needed 
access to veterans claims information.
    These are all great initiatives. But simply put, much more 
needs to be done. Today we have received a number of well 
thought out and informed comments in the testimony that has 
been submitted. I am confident that VA will take them under 
serious advisement. It is up to us, Mr. Chairman, to make sure 
that that happens. I warn that in order for these 
recommendations to receive serious consideration it will 
require a culture change at our VA. One where veterans receive 
the benefit of the doubt. The VSOs along with many other 
stakeholders are the veterans' advocates and VA needs to 
continue to do outreach to make their voices a part of the 
transformation process.
    We must continue on a path to making the claims system 
provided to our veterans first rate, world class, and 
uncompromising. Where it has to simply be done right the first 
time.
    And before yielding back time, Mr. Chairman, I hope we 
still include a hearing where we bring Secretary Shinseki and 
Secretary Panetta together to start working on a single system 
that will provide much better service both for active duty and 
veterans in the whole scheme of things.
    So with that thank you again for holding this hearing and I 
yield back my time.

    [The prepared statement of Hon. Reyes appears in the 
Appendix]

    The Chairman. And thank you very much for your comments 
regarding Secretaries Panetta and Shinseki. We are working both 
through HASC and our Committee to set the schedule. As you well 
know we are working on the Defense Authorization Bill.
    Mr. Reyes. Yes.
    The Chairman. As soon as that is over Chairman McKeon has 
said that we will schedule some times.
    Mr. Reyes. Great.
    The Chairman. So thank you very much. Thank you and welcome 
to our first panel. We are glad to have you here today.
    Our first panel consists of Jeff Hall, the Assistant 
National Legislative Director for the Disabled American 
Veterans.
    Next we will hear from Mr. James Wear, the Assistant 
Director for Veterans Benefits Policy for the Veterans of 
Foreign Wars.
    And finally we will hear from Mr. Randall Fisher, the 
Department Service Officer of Kentucky for the American Legion.
    I thank you all for being here today. We appreciate the 
testimony that you will be providing to us and Mr. Hall, we 
will begin with you. And you are recognized for five minutes.

STATEMENTS OF MR. JEFFREY HALL, ASSISTANT NATIONAL LEGISLATIVE 
DIRECTOR, DISABLED AMERICAN VETERANS; MR. JAMES WEAR, ASSISTANT 
  DIRECTOR FOR VETERANS BENEFITS POLICY, VETERANS OF FOREIGN 
  WARS; AND MR. RANDALL FISHER, DEPARTMENT SERVICE OFFICER OF 
                 KENTUCKY, THE AMERICAN LEGION

                 STATEMENT OF MR. JEFFREY HALL

    Mr. Hall. Thank you. Chairman Miller, Mr. Reyes, and 
Members of the Committee, it is an honor to be here today on 
behalf of DAV's 1.2 million members, all of whom are wartime 
disabled veterans, to share some insights into the role of 
service officers and our views about the ongoing transformation 
of the VA's claims processing system.
    Mr. Chairman, as you well know VSOs play an integral part 
in the disability claims process. VSOs assist VA by reducing 
its workload, ensuring claims decisions are more accurate, and 
helping to improve and redesign VA's claims processing system. 
Since 1920 DAV has provided free representation to all veterans 
and their dependents who are seeking entitlement to VA and 
other government benefits. DAV has the largest service program 
with 100 national offices and approximately 240 national 
service officers and 30 transition service officers who helped 
file almost 250,000 claims last year alone.
    DAV NSOs focus on educating disabled veterans about their 
benefits and the claims process, assisting them with filing 
claims for benefits, and advocating on their behalf to ensure 
that they receive all of their earned benefits. One of the key 
reasons for our success at DAV, and an essential element we 
believe for VA to be successful, is our unwavering commitment 
to our training program. To create and maintain the culture at 
DAV to uphold our core values of service, quality, integrity, 
and leadership every DAV service officer is required to 
participate in a comprehensive training program that lasts 
throughout their career. New NSOs must successfully complete a 
rigorous 16-month on the job training program which includes 
mandatory college courses. And new trainees are regularly 
tested throughout their training to ensure the mastery of the 
subject matters and operating procedures, and must also pass a 
comprehensive test at the completion of their training.
    After completing the initial 16 months of their training 
period all of our NSOs participate in DAV's comprehensive 32-
month structured and continued training program which is 
designed to provide an in depth knowledge and understanding of 
VA's adjudication process as well as the VA's schedule for 
rating disabilities, and the most recent changes to statutes, 
regulations, policies and case law affecting veterans benefits.
    By comparison, Mr. Chairman, VBA's training is much 
shorter, less rigorous, and has fewer testing requirements. As 
such we continue to recommend that VBA significantly increase 
the hours devoted to annual training and like DAV require all 
employees, coaches, and managers to undergo regular testing 
that measures their job skills and knowledge as well as the 
effectiveness of their annual training.
    Mr. Chairman, DAV NSOs and TSOs place a strong emphasis on 
the vital role claimants can play in the process by encouraging 
them to be proactive in gathering as much evidence as possible, 
particularly private medical records using the new disability 
benefits questionnaires. We have worked with VBA to ensure the 
new DBQs ensure an accurate and efficient template to capture 
the relevant medical information needed to substantiate a 
claim.
    However, we are concerned that a longstanding cultural bias 
within VBA against private medical evidence could limit the 
effectiveness of the DBQs. Although the law does allow the use 
of private medical evidence it does not require that it be 
given equal weight the same as VA medical evidence. To address 
this problem we recommend the Committee approve legislation 
requiring VA give due deference to private medical evidence 
that is competent, credible, probative, and otherwise adequate 
for rating purposes.
    DAV has also worked closely with VBA in the development of 
the fully developed claims process, the new rating calculators, 
evaluation builders, and simplified notification letters. We 
also have regular interaction with the new IT development, 
especially eBenefits, the VBMS, and the stakeholder enterprise 
portal.
    Overall, there is a significant change in VBA's openness to 
partnering with VSOs. And Under Secretary Hickey is setting a 
positive tone that will pay dividends for VBA, VSOs, and most 
importantly for veterans. We have also worked very closely with 
the compensation service in development their new operating 
model thanks to the same commitment to partner with VSOs by 
Director Tom Murphy.
    Mr. Chairman, we are all aware of the significant problems 
and challenges faces by VA as it seeks to reform the claims 
processing system. While Congress has increased resources, 
funding, and personnel over the past several years there has 
also been a major increase in the number of claims filed, the 
number of contentions per claim, as well as the complexity of 
the rating decisions.
    In closing, Mr. Chairman, the backlog of claims that are 
pending is too high and the accuracy of claims decisions 
remains too low. However, we must all remember that eliminating 
the backlog is not necessarily the same goal as reforming the 
claims processing system, nor does it guarantee that veterans 
are better served. The backlog is a symptom; not the root cause 
of a broken system. VBA is now in the third year of its major 
transformation of the claims processing system, one that we 
believe can and must be successful. We urge this Committee to 
continue providing strong oversight to ensure that enormous 
pressure on VBA to show quick progress towards eliminating or 
reducing the claims backlog does not result in short term gains 
at the expense of true long term reform.
    With that this concludes my statement and I will be happy 
to answer any questions you or the Committee may have.

    [The prepared statement of Jeffrey Hall appears in the 
Appendix]

    The Chairman. Thank you very much. Mr. Wear, you are 
recognized.

                    STATEMENT OF JAMES WEAR

    Mr. Wear. Good morning. On behalf of more than two million 
men and women of the Veterans of Foreign Wars of the United 
States and our auxiliaries I would like to thank you for the 
opportunity to testify today regarding veterans service 
organizations' role in the disability claims process.
    In 2011 the Veterans of Foreign Wars helped more than 
97,000 veterans and survivors receive over $2 billion in 
compensation and pension benefits. In addition, in fiscal year 
2011, the VFW represented more than 3,700 appellants at the 
Board of Veterans Appeals. Our grant rate was 30.7 percent. 
This is higher than the rate achieved by attorneys and it was 8 
percent higher than that attained by veterans with no 
representation. These show that representation by our service 
officers and appellant consultants clearly helps veterans and 
their claimants submit complete claims or appeals and obtain 
the benefits to which they are entitled under the law.
    We provide all these services to veterans for free. We do 
not take a dollar in grants or payments from the Federal 
government to provide these services. We do these things 
because we recognize that the laws and regulations dealing with 
veterans benefits are complex, the claims process is often 
difficult to navigate. We do these things because veterans have 
already sacrificed for our country and whatever assistance they 
receive from our government should not require additional 
struggle and lengthy uncertainty.
    New VFW service officers are given a 40-hour classroom 
``boot camp'' where they receive intensive training on all VA 
benefit programs with special emphasis on compensation and 
pension. Also all 245 veterans service officers who work in VA 
regional offices attend training each year. This training is 
very technical in nature with heavy emphasis on topics 
regarding the rating schedule. Our goal is to ensure our 
service officers know VA laws and regulations as well as or 
better than the employees with whom they deal daily.
    Once a problem with a decision has been identified we 
expect our services officers to use the facts, laws, and 
regulations to convince VA to change the decision in favor of 
the claimant. In all we provide approximately 80 hours of 
classroom training each year for each VFW service officer, 
which is almost 20,000 hours of classroom training every year 
at a cost of nearly $14.5 million.
    Between training conferences, our national staff is 
constantly monitoring various sources of change to identify 
changes that might affect veterans. We analyze these changes, 
discern how they might impact veterans benefit programs, and 
then notify our service officers of the change and what it 
means to them. These Updates are distributed several times each 
month.
    It is important to understand that veterans service 
organizations are advocates for veterans and partners or 
stakeholders with VA. Our relationship with Secretary Shinseki 
and VBA leaders has steadily improved. We have tried to 
demonstrate to VA that while we are advocates for veterans and 
will hold VA accountable for doing its many and varied jobs, we 
are also willing to work with VA to help ensure that change 
when it occurs is at least neutral in its effect on veterans. 
More importantly, we seek to identify win-win opportunities, 
initiatives for improvement which will help both VA and 
veterans.
    The VFW and representatives from the largest veterans 
service organization have been meeting with VBA on numbers of 
initiatives, including eBenefits, Veterans Benefits Management 
System, better known as VBMS. We recognize and support VBA's 
plans on expanding customer and service organization 
interaction with VA. VA plans to allow claimants and service 
officers to submit information and claims electronically. VA 
indicates that it embraces the idea of permitting veterans to 
electronically change their contact information, such as 
address, or report changes in income for pension, or report 
changes in their dependents. Any initiative which allows 
claimants and their representatives to submit data 
electronically, or to affect minor changes to awards based on 
user input port-ends enhanced service to veterans and great 
savings in time and money to VA.
    We recognize and support VBA's plans on expanding customer 
and service organization interaction with VA.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions you or any Member may have.

    [The prepared statement of James Wear appears in the 
Appendix]

    The Chairman. Thank you very much for your testimony. Mr. 
Fisher you are recognized for five minutes.

                  STATEMENT OF RANDALL FISHER

    Mr. Fisher. Thank you. Good morning Chairman Miller, 
Ranking Member Reyes, and distinguished Members of this 
Committee. Thank you for the opportunity to come before you 
today to discuss the role of the service officer in the 
disability claims process. I am honored to represent over 2,000 
accredited service officers of the American Legion. We are the 
front line soldiers in the fight to get veterans the benefits 
they have earned through their service and sacrifice. In many 
ways we are uniquely qualified to talk about the struggle of 
these veterans because we see them face to face on a daily 
basis.
    As an American Legion department service officer there are 
several things we focus on to make sure that we do the best 
possible job for our veterans. As this Committee is surely 
aware the disability claims process is pretty confusing for the 
layman. Even for the people who work with this system on a 
daily basis it can be pretty confusing sometimes. In the 
American Legion we are veteran focused and put veterans first. 
Most of our service officer veterans are closely connected to 
the veterans community through spouses, sons, and daughters. 
This is important because we speak the language of veterans. We 
know at a glance what all the information on a DD-214 means. We 
can picture exactly what is happening in a report of action 
because we have been there. We also can speak to the veterans 
in a language they understand.
    The VA can learn from this model and hire more veterans to 
work on disability claims. Too many times we talk to VA 
employees who would never understand basic military concepts 
like a noise involved on a flight line or an artillery range, 
or that a support position like a combat engineer might be 
attached to a regular infantry unit for operations in the 
field. Understanding things like this is as basic as breathing 
to a veteran but non-veterans miss these things routinely. VA 
can do better in putting veterans in a position to help 
interpret these things in files.
    Secondly we put a premium on training. We do two lengthy 
schools for our service officers every year in Washington, D.C. 
and Indianapolis. These are multi-day conferences and the 
training is intensive. We continue to train outside of that 
throughout the year. I personally do school in Kentucky three 
times a year for my post service officers. This is one two-day 
training and two one-day trainings.
    Training cannot be something that gets in the way of work. 
Or if you look at it that way, you are going to be behind the 
curve understanding how the claim works. Training has to be a 
part of the work. You would not want a surgeon to examine your 
knee if they had not been properly trained. Why would you want 
anyone to examine your claim if they had not been committed to 
training? There are so many topics that require constant 
training. You frequently pass new laws that help the process 
and we have to learn how these laws will work. VA changes 
regulations and we have to learn those. The courts also rule on 
cases and that changes how the system works. We get regular 
training on what the courts are doing and how it changes things 
because it matters.
    Finally when it comes to counting our work, sure, we have 
to deal with the backlog just as much as the VA does. But we 
believe we can get this backlog down by doing the claim right 
the first time. That means putting a little extra work on the 
front-end to find the details. Sure it takes a little extra 
effort but you cannot put a price on getting it right for the 
veteran in front of you.
    I think service officers have a lot to say because we see 
these veterans everyday. We see them hurting. We see them 
struggling to make ends meet. We know how this impacts the 
veterans. I think it is important to remember there is a human 
face on every single one of those claims. When you see it just 
as one million claims you lose that personal impact.
    I would like to thank you again for taking the time to hear 
from us. I would be happy to answer any questions you might 
have, Chairman.

    [The prepared statement of Randall Fisher appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Fisher. The 
Committee appreciates all of your testimony this morning.
    And Mr. Wear, I would like to start with you first if I 
can.
    In your testimony you said that your trainers provide 
instruction as good or better than that received by the 
employees in VA and that your goal is to ensure that all of 
your service officers know VA laws and regulations as well or 
better than VA employees. What I would like to hear from you 
is, and your opinion if you would, what specific suggestions 
based on your extensive training that the VFW utilizes on how 
VA could improve their training process?
    Mr. Wear. First, we spend a lot of time training our people 
on 38 CFR. That is the rules that the VA runs by. And we find 
that when talking to some people in the regional offices are 
not familiar with different aspects of the 38 CFR. I would 
suggest that we need to have those people be more familiar with 
the various aspects of Part 3, general regulations, and Part 4, 
the rating schedule. One of the things we think is important is 
that if we see something that the rating schedule provides for 
that the rater might not have included we like to be able to go 
up and suggest to them, ``Part 4, you know, diagnostic code for 
diabetes provides such and such if you are on medication. Would 
you reconsider giving him 20 percent instead of just 10 or 
zero?'' We would like to be able to say, ``This is what the 
rating schedule shows.'' I do not think it is fair for us to 
walk up to a rater and say, ``Well we think the veteran 
deserves an increase in his diabetes.'' It is important to us 
to be able to say what the facts show in the file, what the 
medical report says, and how that relates to the rating 
schedule.
    The Chairman. Why do you think they are not familiar? Is it 
just interpretation? They do not know?
    Mr. Wear. I think they have----
    The Chairman. And any of you if you do not mind, if you 
would comment on that as well?
    Mr. Wear. I do think there is a lot they have to learn when 
they first start working for the VA. I know I started with the 
VA many years ago and it took me a long time to learn 
everything. There is a huge body of information they have to 
learn. What I think is important is to make sure that they have 
not just gotten training on it, but somebody sat down and gave 
them a test or something to see how well they learned it. 
Because just because you read it does not mean you understand 
it. So I think that part of this is training and then making 
sure they understand it. That they have, they have grasped it 
so to speak.
    The Chairman. Mr. Hall?
    Mr. Hall. As my colleague says, training, testing, and 
accountability are the cornerstones of any organization, and 
especially with an organization like VBA and the complexities 
involved in the rating process. I can tell you with DAV's 
training program in comparison it is 32 months, again they 
start with 16 months of on the job training. And their career 
begins with a couple of medical courses in college, such as 
medical terminology and anatomy and physiology. That is also 
continued through the structured and continued training program 
that we have that is 32 months long. Each month you have a new 
particular subject or module that they must not only train on 
weekly, and plus do a lot of things on their own time, but also 
the testing that goes long with it. They must pass the test to 
be able to move on to the next module. And then at the end of 
that 16 months, because it is divided in half, at the end of 
that 16-month SCT program they have to take a 170-question 
comprehensive test and then again with different subject matter 
in the second phase of that.
    Even once they complete it and they are provided the 
college credits in various subjects that they are awarded that, 
because of the comprehensive nature of our program the fact is 
that they have to return to the training program and it is 
consistently cyclic throughout their career over and again. So 
in addition to the laws, regulations that James is talking 
about, we also provide that in depth knowledge of anatomy and 
physiology which is crucial to a rating specialist who is 
looking at medical records.
    The Chairman. Mr. Fisher, do you have any comments?
    Mr. Fisher. I retired from the VA as a nurse manager/nurse 
practitioner. So I have got some of the medical background and 
when I do my schools I invite people from the hospital and the 
regional office to go over claims and explain the proper 
physiology of the muscles and different things. But I think a 
lot of the new employees at the regional office, to give you an 
example I had a veteran who had peripheral neuropathy. The 
diabetic specialist at the VA had said he had peripheral 
neuropathy in all extremities. That is a complication from 
diabetes, so you get numbness, tingling, burning in the 
extremities. And when I talked to this young lady about it she 
said it does not say hands or feet. And after a while of 
arguing with her I said, ``Look, it is peripheral neuropathy in 
all extremities. That is anything that sticks out from the 
body.'' You know? He could have gotten sexual harassment thing. 
But you know turned around and scheduled the veteran for 
another C&P, an exam that delayed his claim another six months. 
But I think they need go to the hospitals and incorporate 
training even more for these new people coming in. Because a 
lot of times you have got people who are straight out of 
college or are straight out of high school, they come into the 
VA, and they have no idea what a veteran is, and then they have 
no idea about the medical terminology involved in these claims.
    The Chairman. Thank you. Mr. Reyes?
    Mr. Reyes. Thank you, Mr. Chairman. And before I ask 
questions I just, in full disclosure I belong to all three of 
your organizations and am proud to be a member. So thank you.
    The Chairman. Not just a member, a life member.
    Mr. Reyes. A life member, yes. Correct. Thank you, Mr. 
Chairman. But you know just last Saturday I was at a breakfast 
for the Vietnam Veterans of America. And in my district I hold 
a monthly meeting about veterans issues, and bring in the VA, 
as well as every veteran advocate that lives and resides in El 
Paso. All are welcome. And part of the continued frustration 
that I hear is the issue of backlogs. And why there does not 
seem to be a strategy that is able to address what now 
repeatedly becomes the most frustrating part of a veteran's 
effort to try to get service from the VA. I am wondering if I 
can ask all three of you to comment. The VA STAR quality 
reviews, are they adequate to ensure the accuracy, consistency, 
and timeliness that is needed for us to get 65 percent of the 
claims out of a backlog status? How can the VA, through its 
quality assurance measures, in your opinion, in terms 
specifically as it relates to the number one frustrating issue 
for veterans, and that is having to wait in those backlogs?
    Mr. Hall. I believe as equally important to STAR, if I may, 
is the newly implemented quality review teams that VBA has. 
While we do not have a lot of statistics on it, because it is 
relatively new, being implemented across the country, these 
individuals are going to be dedicated inside each VA regional 
office as we understand it for, I think the ratio is 
approximately one quality review team member for every 35 VSRs 
and one for every 25 RVSRs, who provide an independent review 
as the decisions are being made at the local level, versus STAR 
which may be, you know, in a centralized location. So we are 
anxious to see how quality review teams are going to fare in 
the process and how they are received by VBA employees at those 
local stations. So there is a lot to learn about the quality 
review teams but I think it is going to be as important as 
STAR.
    Mr. Wear. The quality review is critical at the regional 
office. You need to have the local staff looking at those cases 
as early as possible, preferably as a mentor second reviewer, 
to make sure that when somebody is learning the process, 
whether they are a rater or a developer, that they understand 
that process and they can ask somebody questions. When I first 
started with the VA, I mean, I had somebody I could go and ask 
questions of. And that helped reinforce it more quickly so that 
I could move through and do increasingly more difficult cases. 
When I became a rater we had some person to person training but 
no real formal like three or four of us sitting down.
    As Mr. Hall said, I had myself used up my G.I. Bill to go 
to school to take a course in pharmacology, anatomy, and 
physiology. So I think that the better trained the people who 
are raters are on what the body does, its body systems, what do 
they do, how do they interact, I think is critical. I think 
that you will see a little bit of loss in productivity but you 
have got to train people first. Get them up to speed and then 
give them the work. I think, you know, if you just give 
everybody cases then they do not know what to do with them. 
They spend a lot more time wondering what to do, or who do they 
ask, they ask the person they are working with, as opposed to a 
mentor or trainer.
    Mr. Fisher. I agree with Mr. Wear. I know the VA says it is 
one VA but they are really not one VA. Being a former VA 
employee, the hospital is totally separate from the regional 
office and the claims area. I think they ought to have some 
kind of integration of the staff from the VA hospital with the 
regional office to help train these employees, especially the 
new ones coming in, about the medical terminology and how to 
adjudicate the issues involved. But I think it is very 
important that they get this medical background included in 
their training for the claims process at the regional office.
    Mr. Reyes. Thank you. Thank you, Mr. Chairman.
    Mr. Hall. Mr. Reyes, if I may?
    Mr. Reyes. Sure.
    Mr. Hall. Just quickly, as far as quality review I would 
also like to say that, you know, with DAV when we, for those 
claimants that we represent we go down to VA everyday, 
sometimes more than one time, to review those rating decisions 
as they are made. At that moment is when we can provide, before 
the time they issue the decision to the veteran, because it is 
our claimant that we represent we are allowed the opportunity 
to review that case. That is when the first moment of quality 
review really can happen. And we are able to provide that with 
each and every decision that we represent.
    Mr. Reyes. Great. Thank you.
    Mr. Wear. In fact that is something, I think is, cannot be 
highlighted enough about our service organizations having the 
opportunity to look at that unpromulgated, just written rating. 
We find, we find that we need to look at that. And if we catch 
mistakes, and we take it back to the rater when allowed to. 
Sometimes there is a lot of supervision that does not want you 
to talk to the rater. But we find if we, they will say, ``Thank 
you. Oh, I missed that. Oh, I did not see that.'' And then they 
make a correction. And it helps our customer because their 
veteran and our veteran gets a better rating.
    Mr. Reyes. That is encouraging. Thank you all, and thank 
you Mr. Chairman.
    The Chairman. Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman. I would first like to 
commend all of you for your efforts to assist our veterans with 
disability claims. Your hard work and understanding of the 
claims process make invaluable differences in the lives of our 
veterans and help ensure that they are receiving the benefits 
and services that they have earned. I appreciate your 
testimony. Thank you for being here today.
    I wanted to give you an opportunity, are there any specific 
challenges that your organizations are facing when assisting 
veterans with disability claims that you would like to 
highlight for us?
    Mr. Hall. One thing that has always, I think been present, 
now for the last couple of years I have been working in my 
present position, but the first 17 or 18 years of my career 
with DAV was spent in the field at different regional offices 
working for DAV, either as a service officer or a supervisor, 
an area supervisor. And I can tell you that throughout the 
career, one of the things that seems to recur is a cultural 
difference in VA. Now while it may be much better now today 
than what it was when I first started many years ago, the fact 
is, is that to truly embrace veterans service organizations and 
partner with them in the truest sense, while they may be here 
in Washington, D.C. at VA's central office, and we do see a lot 
of that and we are very positive about a lot of the changes 
that we are seeing, a lot of times that does not trickle down 
to the VA regional office. And one VA regional office might get 
it, one other might not. And it is no mystery or no rarity for 
an NSO to say, ``Well you cannot get a claim like that through 
this regional office. You are going to have to make sure that 
gets sent to XYZ office.''
    Mr. Johnson. So there seems to be a we/they culture?
    Mr. Hall. A lot of times, sure. Yeah. I believe so. And I 
think that is one of the biggest things.
    Mr. Johnson. Well how can Congress and this Committee 
assist you and also the VA with the claims process?
    Mr. Hall. Well I think with the claims process it begins 
with, we have to allow VA, with all these parts and initiatives 
that are in motion right now there is no way to know exactly 
what the end result is going to be, how successful something is 
going to be towards whether it is reducing the backlog or the 
transformation of the claims process, or modernizing the IT 
system. There is just too many things in motion. And we are 
anxiously awaiting to see how a lot of these things work out. 
However, we believe that Congress must continue with the 
aggressive oversight to ensure the enhanced training, testing, 
and accountability is present throughout VA. Without it the 
success is going to be very limited.
    Mr. Johnson. I appreciate your comments. I have expressed 
continuing concern to the VA about their information technology 
infrastructure, their architecture. And we are continuing to 
work on those issues.
    Some of you noted in your written testimony that Secretary 
Shinseki has set a goal for claims to be completed with a 98 
percent accuracy standard. Now, while some regional offices may 
be close to reaching that standard, others are still lagging 
far behind. What suggestions do you have for ensuring that all 
claims are held to at least that 98 percent accuracy standard?
    Mr. Wear. Another thing that I think Congress should 
continue to have oversight of is the VA needs to get the word 
out to people while they are still in the service as to what we 
can do for you. Veterans, servicemen after they leave service 
say, ``Well, I did not know I could get help from you folks.'' 
We have a lot of people spread throughout the country who work 
in that benefit delivery discharge to try and help these 
servicemen get, find out what claims they need to do before 
they get out.
    You have what is called Quick Start, which it is not. It is 
running many days, in some places, you know, it is running over 
300 days to do a Quick Start claim. Part of this is making sure 
that when the VA gets the word out to people that they have 
people that can do those claims when they get them. Because the 
staffing out in Salt Lake City, they do not, they do it better 
than in San Diego, but San Diego's Quick Start, they need more 
people. They recently added another 30 people to do cases out 
there, to do the ratings. I think we will have to say, again 
like Mr. Hall says, how that pans out.
    Mr. Johnson. Okay. Well, thank you for your testimony. Mr. 
Chairman, I yield back.
    The Chairman. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. I would 
like to thank our three panelists this morning for coming 
forward. My first question is for Mr. Hall. You had mentioned 
you had 30 service officers that help assist and 250,000 
claims. What has, what is the accuracy rate of those claims? Do 
you keep a record of that?
    Mr. Hall. I do not know the record of that particular 
aspect of it. But we have 240 national service officers that 
work inside VA regional offices and some colocated in VA 
medical centers; 30 transition service officers that are 
dedicated to providing transition, outprocessing, claims 
assistance as they are leaving the military service. I do not 
know what the answer to that is. I would be happy to look into 
that with our service department and get back to you on that.
    Mr. Michaud. Mm-hmm. Thank you. With the wide disparity 
between claims processing centers, and you heard earlier from 
the previous member, that has the VSOs, you know, claims reps 
noticed a difference in policies that might speak to why some 
of the claims centers are more accurate than others? And we 
will start with Mr. Fisher.
    Mr. Fisher. I work out of the regional office in 
Louisville, Kentucky. I have noticed increased accuracy there, 
but that is mainly due to the training. You can get back to 
what Mr. Wear was talking about, how important, and Mr. Hall, 
how important the training is for these new employees. A lot of 
the employees feel like you are taking them away from their 
work to go to this training. But it is so important to improve 
the accuracy, that training, improve that claim and make it 
right the first time. That you do not have, but I have a good 
relationship, I can go to the raters, I can go to the trainers, 
the coaches, and talk to them about a particular claim and 
catch something before the final decision is made.
    Mr. Michaud. Mr. Wear?
    Mr. Wear. It is critical that our service organizations 
have people in the regional offices, but also at the points 
where people are getting out of service. Because we find that a 
lot of servicemen, we help them go through the claim and we 
look through their service medical records. And a lot of them 
are just amazed, ``Well, I would not have ever thought to put 
that down.'' So a lot of this is knowing what you need to do, 
to look at, to put it down to help that veteran file a complete 
claim. It is so important that when that servicemember leaves, 
that all his service medical records go with him.
    Now everybody thinks that that is a fairly easy process. 
But now there is numbers of military hospitals that have 
electronic records. We have taken to reminding our 
servicemembers you have to get your printed records and get 
them to print your electronic records so that we will have a 
complete set. So when it comes out the VA can go ahead and rate 
on all your medical records.
    Mr. Michaud. Yeah, but the question was have you noticed a 
difference in the policy that might reflect the different 
centers?
    Mr. Wear. I think you can ascribe that to the various 
supervisors that go from office to office. I can tell you when 
I worked in the VA there were certain supervisors that cared 
about the quality. There were other ones that were more 
interested in making numbers.
    Mr. Michaud. Mr. Hall? Have you noticed a difference in 
policies that might speak to the difference in accuracy?
    Mr. Hall. I do not know that the difference in policies, I 
will say I think it kind of comes back to cultural differences. 
It depends on who the employees are at each regional office and 
the, you know, from the leadership. I have worked in different 
regional offices, some that were not led well. I was in Chicago 
back at the time when the IG investigation took place back in 
2004. And they launched a study to do the, you know, the top 
high six, I think, regional offices versus the low six, and 
represented versus unrepresented claimants. And I can tell you 
that we could absolutely get nothing done in that regional 
office at that particular time. I am glad they fared okay in 
the end, but what the problem came down to it starts at the 
leadership and it was a culture that went down. I think that 
also then has to translate to the present time of there are 
still folks out there that just do not get it. They just simply 
do not understand who is applying, what the claimant is 
representing as a claimant, what a VSO is as a claimant's 
representative, and who they are in part of the process. And 
finally erasing all of the, ``This is the way we have always 
done it here,'' you know, it is a slow process.
    But I think that might be a lot of the reason why you are 
seeing increases, along with other things like initiatives and 
things that they are doing, but it starts with the leadership 
at those regional offices.
    Mr. Michaud. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Runyan?
    Mr. Runyan. Thank you, Mr. Chairman. And again gentlemen, 
thank you for all you do for our veterans. I want to bring up 
one thing. Not only the Subcommittee I chair but also this Full 
Committee and the House has passed a four-year pilot program 
doing exactly what you are talking about, and it is sitting 
over in the Senate. I know having conversations with Secretary 
Shinseki all the time, accountability is at the top of his 
list. And that program is, I think, a first step in doing 
exactly what all three of you were talking about, is hold the 
people that are doing these ratings accountable for what they 
are doing and getting them the proper training to make sure it 
does not happen again. And I just wanted to put that out there 
because it truly has been addressed by this Committee.
    Mr. Fisher, I asked a question of the Secretary in a budget 
hearing about a month and a half ago about hiring veterans and 
I have not heard a response. But the difference between the 
hiring and retention also, do you have any insight into that?
    Mr. Fisher. I know we talked to Mr. Shinseki several times 
about hiring veterans and he made an active promise here a 
couple of years ago that he was going to try and get the VA up 
to the 50 percent level of veterans. The veterans are out 
there. They are trained. They go to the VA hospitals. I know 
for the first year or so they could actually go back to 
personnel. They did not have to do it online, they could 
actually go to the office and fill out an application. And now 
that has kind of went by the wayside, everything has gone back 
to the online, where you have to go to usajobs.gov to apply. 
Except for the nursing positions, and then you can go to the 
hospital directly and talk to a nurse recruiter.
    I think having that personnel office open expedited hiring 
veterans and made it easier for them because the usajobs is 
very difficult to navigate on the computer and stuff for 
applications, what you are eligible for and what jobs are open 
at that particular facility.
    Mr. Runyan. Is there any sense into when we do hire them do 
they stay in that position? Or do they----
    Mr. Fisher. Yes. I have seen, I have had several people 
that I have recommended for the VA that stayed on, and been 
hired in as engineering, and electricians, computers, nursing 
people. But I have seen them stay on. You know, anybody that 
comes in like through the CMT, the workman therapy program, 
those people have difficulties because their TBIs are severely 
disabled and they will have trouble with attention deficit 
problems and staying in a position. So a lot of those guys are 
increased disability or sent for other training. So you do have 
a difficulty retraining those that are severely injured.
    Mr. Wear. What you just said is one of the primary problems 
the VA has. That is when they hire somebody they will spend the 
time training them, then they leave. I think that part of the 
process of hiring somebody is trying to find somebody who 
matches whatever job you are looking for. The difficult part is 
to find somebody who would make a good veterans claims examiner 
or rater. You know, anywhere in that looking at claims. That is 
a very difficult job and it is not one that everybody who walks 
off the street, even all our veterans, might be best suited 
for. So I think it is important that the VA look at how they go 
about hiring people to make sure they try to match that 
person's skills and abilities to the requirements of the 
position.
    Mr. Runyan. Thank you for that. Mr. Hall, you brought up an 
interesting point dealing with the private medical evidence 
versus VA medical evidence. A majority of the time is it a 
private medical evidence that gets the ball rolling on a rate 
adjustment?
    Mr. Hall. I do not know if it is the majority of the time, 
but it is a great deal of the time. And I can speak too what we 
do in DAV and that is when the claim is initiated it is one of 
the first things that we encourage them to do. Are you being 
treated by a private doctor? Sure, we ask if they are being 
treated at the VA. But when we know that they are being treated 
by a private doctor we zero in on the fact that they need to 
make sure that they get that medical evidence. Do everything 
that they can to do it, sign release forms, whatever it is, so 
that they can get that medical evidence. It would be best if 
they did it before, you know which we try to encourage, before 
they submit the claim so we can submit it as complete as 
possible. However, that is not always the case. But the key is 
to get that medical evidence. The hardship in that is once the 
evidence is received by the VA if you have a rater that simply 
says, ``Well, I see this private medical evidence but I think 
we need to set up an examination.'' That is unnecessary to do 
so. If it speaks to the disability that is being claimed, it is 
credible, it is competent and, you know, provides an adequate 
reason for a decision, then that is where the end of it should 
be. That alone, that alone would speed up the time process in 
the claim.
    Mr. Runyan. Thank you. Chairman, I yield back.
    Mr. Wear. If I would also jump in and add, we have talked 
about DBQs, disability benefit questionnaires. The VA has 
structured those so that whatever requirements out of the 
rating schedule are put in there, and then a private physician 
can fill it out. I think part of the reason for that is the VA 
has realized that a lot of raters do not accept a private 
medical statement. So to help that rater feel more comfortable 
if you can have the VA doctor fill this out, or you can have a 
private physician fill it out. It is the same form but it gives 
them the information so that the rater cannot say, ``I think I 
am going to have to order an exam.'' No, you have got the same 
thing you are going to get from a VA physician if he fills out 
a cardiovascular DBQ. You are going to get it from the private 
physician, the same information, that you are going to get from 
a VA doctor. So hopefully that prevents the unnecessary VA exam 
and speeds the exam process up. Or pardon me, the claims 
process, not the exam.
    Mr. Runyan. Thank you. Chairman----
    Mr. Fisher. Mr. Runyan? I would like to say something on 
that issue, too. There was with the disability claims I know if 
a veteran is going to the VA hospital and he is seeing a 
specialty doctor, or he is seeing his primary care doctor, they 
will refuse to write any statements regarding his disability. 
They will make that veteran get scheduled for a C&P exam and 
that delays the process even longer, too.
    Mr. Runyan. Thank you for that.
    The Chairman. Mr. McNerney?
    Mr. McNerney. Thank you, Mr. Chairman. I want to thank all 
the witnesses for your testimony. It is very thoughtful. It is 
clear that you are interested in helping find ways forward to 
improving the backlog. And I just wanted to follow up a little 
bit on Mr. Runyan's question. Mr. Hall, you had mentioned that 
there was VBA bias against private medical evidence. And Mr. 
Wear, you said one of the things that could help is just having 
the same form that was used by private medical practice to, for 
a veteran. Is that something that you think would help? I mean, 
getting a private physician to fill out a form is going to be a 
challenge in itself.
    Mr. Wear. The DBQ, disability benefits questionnaire, was 
constructed by the VA. What they tried to do was take the 
requirements out of the rating schedule, put it in a form that 
either the VA medical doctor could do or a private medical. I 
think that speaks somewhat to Mr. Hall's point about the 
reluctance to accept private medical statements. So that if you 
have got that same form, you know for whatever the condition 
is, if that same form is filled out by a private physician then 
that rater cannot simply say, ``Well I am not sure if it covers 
everything.'' The form has been designed and approved by VA to 
cover all the aspects of cardiovascular, or whatever the 
condition is. So yes, I do think that will help speed up the 
process. Because we can then give it to the veteran. He can 
have it filled out. We can submit that with his claim so that 
would have a complete claim because you have got something that 
talks to the condition right away.
    Mr. McNerney. Is that form available to the VSOs?
    Mr. Wear. Yes, sir.
    Mr. Hall. It is. But again, we are still at the beginning 
stage of that. And to just carry over what Mr. Wear is saying, 
again, due deference to the private medical evidence versus the 
VA medical evidence is going to be essential. The law requires 
VA to accept the private medical evidence but it does not 
require them to give it equal weight as VA medical evidence. A 
lot of raters know this. They could simply stand there and say, 
``Well I am looking at it, but you know what? I feel that an 
examination is necessary.'' Or, ``I have this VA medical 
evidence over here that really kind of does not say the same 
thing.'' Well from a rating, you know, from a service officer's 
perspective if you have a positive balance, a balance between 
positive and negative evidence in the process that places the 
claim in relative equipoise and reasonable doubt must be 
resolved in favor of the claimant. That is a long way of saying 
simply VA needs, we need to get past the fact that they simply 
accept it and actually require them to give it the proper 
weight that they give VA medical evidence.
    Mr. McNerney. Well my constituents are served by the 
Oakland Regional Office which has one of the world backlog, the 
second worst backlog record in the country. Just to illustrate 
how this impacts life on the veterans, could you Mr. Hall give 
me just a run down of how that additional backlog of 20 days or 
60 days impacts the life of a veteran?
    Mr. Hall. If they have been given a life expectancy, it 
could affect that individual terribly. Now that might be an 
extreme case of if the person files a claim, and even though 
the VA has mechanisms in place to expedite a claim, still there 
is a backlog in the expedited claims. So, but in general terms 
with the claims process they should not have to wait, period. 
We can all agree on that simple thing. We are hopeful that the 
VA can get to their 125 days. To us more importantly than the 
125 days is the accuracy in getting it done right the first 
time.
    There are so many things that have to take place for VA to 
be successful in that, but how does it affect a claimant? Well 
if it takes, an individual gets out of service and they file a 
claim, they do not have a job yet, they are disabled. They are 
not able to get that job. They file a claim and it is going to 
take them a year, more than a year to get a decision in it? It 
could mean the difference between surviving and living on the 
street.
    Mr. McNerney. Yeah. Okay, Mr. Wear?
    Mr. Wear. I think you would find if the VA took private 
medical, whether on a DBQ or just a statement on a doctor's 
letterhead, and used that I would suggest they could, if it 
takes 30 days to 60 days to get a VA exam, you could save that 
30 days to 60 days on quite a few claims.
    Mr. McNerney. Is that a regional effect as well? I mean, is 
this likely to be taking place, this problem of bias against 
private medical, is that likely to be part of the problem at 
Oakland if it is not part of the problem at one of the more 
efficient centers?
    Mr. Wear. I would suggest that the private medical evidence 
is an issue across the system. But some places there are other 
efficiencies based upon the leadership at that other office 
that may be a difference at the Oakland office.
    Mr. McNerney. Okay, thank you. Mr. Chairman?
    The Chairman. Dr. Benishek?
    Mr. Benishek. Thank you, Mr. Chairman. Thank you, 
gentlemen. I have a couple of specific questions I would like 
to ask just to get started. You know, I just toured a facility 
in Butler, Pennsylvania that the VSO guys, where they file a 
power of attorney when they start the claim, and then they try 
to follow up with the status of the claim, and then the VA says 
that we need a power of attorney. And I do not know if it is a 
common thing, or if it is a isolated incident. But I mean, it 
ended up delaying, you know, there are all these little 
individual things that seem to delay the process. And there 
seems to be a process problem rather than, you know, an intent 
problem. And I seem to run into that sort of thing all the time 
when investigating this thing. So is that a common, do you see 
that all the time?
    Mr. Hall. Absolutely. And I personally thank you for that 
question. Because it does speak about something that we have 
struggled with I am going to say throughout the course of time, 
but I know at least for the 20 years or so I have been with 
DAV. That getting VA to input the power of attorney into the 
system so that we can provide effective representation, which 
as a byproduct will help the VA do a better job, seems to be 
just a longstanding issue.
    Now we are hopeful, we are hopeful that some of these 
systems, and ideally like the stakeholder enterprise portal, 
where we can go in, the veteran can, we can select that power 
of attorney. It is automatically going to be in the system. 
That will then be interconnected with VBMS and a lot of other 
things. And when a veteran goes in and they file a claim 
through eBenefits, as an example, they might be able to select 
a representative. However, it still has to come to the 
representative. The stakeholder enterprise portal in allowing 
the power of attorney to be there, and then us to be able to 
access the full claim from that point forward is going to be 
essential.
    Mr. Benishek. I appreciate that. Mr. Wear, let me ask you 
another question. I think you are going to copy what Mr. Hall--
--
    Mr. Wear. Yes and no.
    Mr. Benishek. Well go ahead, go ahead.
    Mr. Wear. The difference is when you put a power of 
attorney in at the medical center the regional office also has 
to put it in many different IT systems. So that if you have 
somebody that puts it in at the medical center and they have to 
send it over to the regional office, keep in mind if you are in 
Butler it has got to get to Pittsburgh. When Pittsburgh gets it 
they have got to sit down and put it into many different 
benefits systems. If you miss one sometimes we will go in and 
try to access it and they will say, ``Uh-uh, I am sorry, you do 
not have power of attorney yet.'' So part of this is how can we 
do it electronically? And how can we do it electronically to 
all the systems?
    Mr. Benishek. Right. One of the other questions I had was 
the fact that, you know, the communication between the VSO, you 
know, the representative for the claimant and the rater, do 
they ever speak as the rating is going on? I mean, do they 
schedule the rating at a certain time so that you can go over 
them, you may be in one place and they may be in another. Well 
is there some kind of a coordination to say well we have, you 
know, you have explained to the rater that you are processing 
the claim, we think we have the right documentation, and this 
is where it is, so we can go through the claim with the rater 
at the same time via the phone maybe? To try to clear these 
things up so he just does not rate it no and then, you know, it 
takes 30 days for you to find out about he rated it no. And 
then you have got to call him and say, ``Well on page 37 is the 
thing you were looking for.'' Do you understand me? To 
coordinate that so it is better done? I mean, does that happen?
    Mr. Wear. We are finding that the people who do development 
are coming to VSOs much more often and saying, ``You know, we 
need this.'' A doctor's statement, or some piece of evidence. 
They will come to us and ask us to get it before it goes to the 
rater so the rater will have everything.
    Mr. Benishek. You mentioned that sometimes the rater and 
the VSO sometimes are blocked from talking to each other by a 
supervisor? I mean, how does that occur?
    Mr. Wear. The people who run the service center can say to 
VSOs, if you have a question they can designate a particular 
person you have to go talk to, which may not be a rater. It 
could be a coach, it could be a supervisor. The supervisor of 
the rating team. That is not true across the country. It 
varies. So there is more than one regional office where if I 
have a question on a rating I can walk back to the rater and we 
can talk about it right there.
    Mr. Benishek. So that occurs on a regular basis then when 
they are doing their rating? The VSO officer is talking to them 
and walking them through the application?
    Mr. Wear. By depending on which office you are in. Some you 
have to go talk to the supervisor, some you can talk to the 
rater.
    Mr. Benishek. But that does not make much sense. I was 
hoping they would do it in realtime.
    Mr. Hall. I would just tell you through, with DAV, and some 
of the other service organizations at the regional office, 
interaction with the VA, whether it is the VSR, whether it is 
somebody at the front desk, a VSR throughout the process, an 
RVSR, we have constant interaction to them unless there is some 
kind of prohibition which may be the case. Hopefully not 
anymore, but the fact is that we have constant interaction with 
the rater.
    They may call me and ask, ``Listen, I am looking at Mr. 
Jones' case. You know, he needs this particular type of 
evidence. Can you talk to him?'' And so we will make the call 
on their behalf. Or, we may get the evidence and go down and 
talk to them and say, ``Listen, you know this is the kind of 
the evidence that you are looking for.'' And so we do have 
that. That is why beyond educating the claimant and assisting 
the claimant with the claims filing part of it, where we begin 
our advocacy is throughout the process in interacting.
    Mr. Benishek. Well that is what is so frustrating to me, is 
the process seems to be full of these little small delays that 
cumulatively really make it, you know, lengthy. I guess I am 
out of time, but I will yield back. Thank you. Thank you, 
gentlemen.
    The Chairman. Mr. Braley?
    Mr. Braley. Thank you, Mr. Chairman. Mr. Wear, I want to 
start with a comment you made which really upset me. I have a 
long history of being involved in processing and evaluation of 
impairment ratings and disability claims. And I find it 
appalling that we are expecting disabled veterans to be 
responsible for getting copies of their paper medical records. 
And I want to make sure the Committee understands the 
distinction I am talking about. We have made great strides in 
moving toward electronic medical records, which are original 
copies. Or they are original medical copies in an electronic 
format. But there has been available for over a decade the 
ability to reproduce in a digital format paper medical records. 
And services have been available in the private sector for 
years to provide those electronic copies instantaneously of a 
paper medical record. So I cannot understand why we still pass 
the burden to a disabled veteran to transmit paper records of 
their medical charts to anyone, especially if they originate 
from DoD or they originate from VA. Can you explain to me why 
we still have that expectation with the technology that is 
available to us?
    Mr. Wear. There is a bit of a difference. If a veteran has 
been treated at a VA medical facility, the rater or the VSR can 
electronically go into that veteran's record, VA record, and 
download that medical record and in fact put it right in the 
rating. The difference though is that getting the electronic 
record from DoD to the VA is not an easy path at this point.
    Mr. Braley. And why is that? Because we have been talking 
about that, Mr. Chairman, for months on this Committee, and for 
years before I came onto the Committee. Why have we not 
addressed that interoperability issue in a meaningful way?
    Mr. Wear. Well I do not know that I am the best person to 
answer why that has not happened. But we try to do is when we 
are trying to help that servicemember, is that if it is not 
going to get from that Fort Sam Houston to the VA we think it 
is more important to get a paper copy so we can give the VA all 
his complete records at that point.
    Mr. Braley. But here is my point. Most of the locations 
where you would be getting a paper copy come through a printer 
that has scanning capabilities now that can convert that to a 
PDF file and send it instantaneously to anybody who is 
requesting it. And what you are saying is we should put the 
burden on the wounded warrior to make sure they get a printed 
copy that they get in their hand, and then they are responsible 
to delivering to the person who is evaluating their impairment 
claim. I do not understand why we do that.
    Mr. Wear. I mean, we do have the option of doing VONAPP 
where the veteran or the serviceman can file online 
electronically. But I am not sure how they would go ahead and 
have all their records, if they are electronic records perhaps 
they can transit that through VONAPP directly to the VA. But if 
they have been in service any length of time those service 
records, to my knowledge DoD does not offer the scanning 
feature to a servicemember that would allow that to be 
electronically transmitted to the VA.
    Mr. Braley. Well I can tell you it takes the exact same 
amount of time to scan a paper medical record into an 
electronic format as it does to copy into a paper format and 
hand it to somebody. And to me a system will not be working 
properly until you can sign an electronic consent form in any 
location and instantaneously have those records transmitted in 
whatever their original form is to the person evaluating that 
claim. That is when we are going to have a much more efficient 
system that takes the burden off of the applicant.
    And the other point I want to make is one of the biggest 
problems we have is people who are involved in this process 
have very limited training and understanding of how the 
impairment evaluation system works. And I just helped a young 
Marine that I met on a trip to Iwo Jima who had a difficult 
time understanding why his individual impairment ratings that 
added up to a cumulative rating did not match his whole body 
impairment. And the fact that I got a copy of his records and 
it was mentioned briefly in one of the lengthy overview 
documents about the process was proof to me that we have a long 
way to go in making people have a deeper understanding of what 
to expect when they get into the system. And we also have to 
educate the people doing the evaluations so they have a much 
more sophisticated knowledge base to get these claims processed 
uniformly, consistently, and fairly. And with that I will yield 
back.
    The Chairman. Thank you very much. I appreciate you being 
here. We appreciate you being here today, and you are 
dismissed.
    Our next panel consists of one. Mr. Sullivan, it is great 
to have you here with us today. He is the Managing Director for 
Public Affairs and Veteran Outreach for Bergmann and Moore, 
LLC. We appreciate you being here to testify. You are 
recognized for five minutes.

 STATEMENT OF MR. PAUL SULLIVAN, MANAGING DIRECTOR FOR PUBLIC 
     AFFAIRS AND VETERAN OUTREACH, BERGMANN AND MOORE, LLC

                 STATEMENT OF MR. PAUL SULLIVAN

    Mr. Sullivan. Good morning, and thank you Chairman Miller 
and Ranking Member Michaud for being here today. NOVA is a 
nonprofit organization representing more than 500 attorneys and 
agents assisting tens of thousands of our veterans obtain VA 
disability benefits. I am testifying here today as an employee 
of Bergmann and Moore, a law firm in Bethesda, Maryland 
representing veterans whose disability claims were denied 
before VA and the U.S. Court of Appeals for Veterans Claims. 
Partners Glenn Bergmann and Joe Moore are both NOVA members and 
Joe Moore also serves on the NOVA Board of Directors.
    First I would like to start by saying that NOVA truly 
appreciates the recent increases in appropriations for VA and 
your oversight of VA. While VA is improving in many areas, and 
this should be noted, there are several other areas urgently 
needing your attention.
    VA's overwhelmed disability claims processing system 
appears to be grinding to a halt. Last Sunday the New York 
Times reported the Oakland VA Regional Office takes a 
unconscionable 313 days, that is more than 10 months, to 
process a new claim. A few years ago VA averaged five months 
nationwide. Right now more than 1.1 million claims and appeals 
await decisions at VA.
    Our oral comments this morning focus on five specific 
recommendations for Congress and VA to improve VA's claims 
process for private practitioners and VSOs. First, NOVA urges 
Congress to mandate that VA provide veteran advocates full 
access to claimants' records via a secure system. Social 
security already has such a system that permits viewing of the 
electronic folder, uploading medical and other evidence, a 
seamless transition of initial claims and appeals, and even 
online responses about claim status.
    Second, NOVA urges Congress to provide a point of contact, 
a person that VA can name where accredited representatives can 
speak to that person, the same level of access granted to the 
veterans service organizations that were seated at the table a 
few minutes ago. Right now VA deliberately restricts access to 
representatives who are not physically located in VA regional 
offices. As a consequence, non-VSO representatives have no 
access to individuals within VA who can provide a status on a 
claim. Attorney fee coordinators have historically attempted to 
fill this void by giving information to private attorneys and 
agents. However, some regional offices, such as Detroit, have 
specifically instructed their attorney fee coordinators not to 
respond to attorney inquiries unless the inquiry deals with a 
fee issue.
    Third, NOVA urges Congress to mandate that VA promptly and 
accurately file time sensitive documents. These documents 
include those initiating and perfecting claims and appeals, as 
well as forms identifying the appointment of a veteran 
advocate. Delays often result in resubmitting information. 
Electronic filing would eliminate this issue altogether, as 
documents would be filed in realtime. It would also eliminate 
the persistent problem of misfiling or losing paper documents.
    Fourth, NOVA urges Congress to mandate that VA improve the 
accuracy of information provided to claimants via its toll free 
1-800 number. VA's inspector general has repeatedly reported a 
high incidence of response inaccuracy, further frustrating 
claimants and advocates. Additional training and realtime 
access is necessary to improve VA's claim information sharing.
    Fifth, NOVA urges Congress to hire additional decision 
review officers, DROs. Currently, regional offices only have 
two or three DROs working on appeals that number well into the 
thousands and continue to grow. In some cases the wait time for 
a decision following an initial appeal is at least 1,100 days. 
That is more than three years. We believe hiring additional 
DROs would improve the appeal process time and reduce VA's 
claim backlog.
    In conclusion, Mr. Chairman, NOVA supports funding for VA 
initiatives to computerize VA's obsolete claims processing 
systems. NOVA believes our reasonable and practical 
recommendations to VA's initiatives will result in veterans 
receiving more timely and accurate decisions from VA. NOVA 
offers to work with this Committee and VA to implement our 
recommendations. Thank you. This concludes my testimony.

    [The prepared statement of Paul Sullivan appears in the 
Appendix]

    The Chairman. Thank you very much. Mr. Sullivan, in the 
beginning of your testimony you talked about the Veteran's 
Choice of Representation Act that was part of the Veterans 
Benefit, Health Care, and Information Technology Act of `06, 
and that it works as intended. And what I would like you to do 
if you would is to elaborate a little on the overall effects of 
the law with respect to efficiency and helpfulness to the 
veteran population?
    Mr. Sullivan. Thank you, Mr. Chairman, for asking that 
question. And thank you for pushing through that legislation. I 
probably would not be sitting here today representing a law 
firm that helps veterans if you had not done that.
    What VA faces right now is a surge in demand. There is a 
tidal wave of claims flooding into VA. Secretary Shinseki has 
stated that the number of claims coming in has steadily risen 
from 800,000, 900,000, and they expect it to eclipse one 
million and beyond. That means that there is plenty of work to 
go around for everyone, veterans service organizations and the 
attorneys who represent veterans and other claimants on 
appeals. Therefore, the ability to have attorneys assist 
veterans and other claimants after there has been a denial by 
VA has probably assisted with the overall health of the VA 
claims process. Just imagine, if you would Mr. Chairman, what 
it would be like if they were not there?
    In the specific details the attorneys representing 
veterans, and I am not an attorney, they have been able to act 
as litigators and they act to set case law and other important 
standards that VA must follow with their aggressive follow up 
and representation of veterans on appeals.
    The Chairman. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. And thank 
you, Mr. Sullivan, for coming here today to testify before our 
Committee. You used to work at the VA. And you mentioned about 
accuracy, which I think everyone on this Committee agrees with. 
If you get it accurate the first time you do not have to worry 
about appeals. But there is and has been a wide disparity 
between the claims processing centers in the different regions. 
In your opinion, why is that? What makes some centers better? 
Is it because of the turnover rate? Or for instance in Maine, I 
know VA is an employer of choice. People really enjoy going to 
work everyday. In other facilities, actually during the BRAC 
process when we dealt with the DFAS facilities, where those 
facilities did not have an accuracy rate as high as they were 
in Maine, in those areas they were not an employer of choice. 
What do you think is some of the problems within the VA system 
as far as the accuracy? And I know we heard from the first 
panel training being an issue. But beyond that, what are some 
of the problems? And do you feel it is different policies in 
different regions?
    Mr. Sullivan. Congressman, thank you for your question. The 
first and most important issue is demand. The tidal wave of 
claims coming into VA is placing an unprecedented demand on VA. 
And frankly in my opinion VA does not have the resources to 
adequately meet that demand. While working at VA I personally 
briefed VA leaders starting in 2003 about the surge in demand. 
And VA at that time chose to, shall we say, not pay attention 
to the train coming down the tracks. And that was to the great 
detriment of our veterans.
    The next issue is the backlog itself. Now that there is a 
backlog, in other words 1.1 million veterans and other 
claimants waiting for benefits, what effect does that have on 
an office? Well the policy from Washington is to often say 
this. Production, production, production. Get the claims out as 
fast as possible. Well what that then causes is VA employees to 
take the easiest route to process a claim. That may not always 
be the best route to process the claim. So when there is this 
tidal wave of demand if we do not have adequate staffing the 
rushing of the claims causes problems.
    I can speak from one point of expertise, and I say this as 
an individual who worked at VA. We actually reviewed Gulf War 
claims in the early 2000s. And we found that veterans claims 
were more likely to be granted under these two conditions. If 
it was a low backlog at the office, and the VA employees were 
trained on how to process claims.
    The reverse was also true. Veterans were most likely to be 
denied, like 90 percent or more denied, if there was a large 
backlog at that office and there was no training on how to 
process Gulf War claims. So training is very important.
    And the last is streamlined regulations. VA issued a report 
recently, I do not have it in front of me and this is going to 
be close for a description, when VA changed the regulation on 
PTSD in 2010 the error rate before that was about 25 percent or 
higher. After VA promulgated the new PTSD regulation the error 
rate decreased to about 10 percent. That shows that 
streamlining the policies to reflect science actually improves 
VA's accuracy rate.
    Mr. Michaud. Thank you. And I also appreciate the fact that 
you are focusing on accuracy. Because actually it is 
detrimental to your agency because your attorneys actually deal 
with the appeals, so there will be hopefully fewer appeals if 
they are more accurate. So I appreciate you are still focusing 
on the accuracy issues.
    Dealing with, I mean, there are two issues here. One is the 
accuracy, getting claims done on time. And I see the other 
issue as dealing with the backlog that is currently out there. 
How would you feel about, if you look at the VSOs, the great 
work they do in helping with the claims, if the VA would have 
to accept some of the claims as submitted by the VSO and we do 
an audit? Because I assume from what I heard in the past that 
some of the VSOs' claims are pretty accurate as they go through 
the system.
    Mr. Sullivan. There is that new project of the ready to 
rate claims, and that moves the whole discussion in that 
direction. Now NOVA does not have a position on that per se. 
However, in the past when I was here testifying before with Ms. 
Bilmes at Harvard University she actually suggested that as a 
way for VA to overcome this huge bubble, this tidal wave of 
claims that have poured in. VA does need to take a very good 
look at streamlining how it does the claims process. Because 
what they are doing right now, Congressman, is not working.
    The Chairman. Mr. McNerney?
    Mr. McNerney. Thank you, Mr. Chairman. Mr. Sullivan, one of 
the very first things that you said in your spoken testimony 
was the, you referred to the Oakland Regional Office. And that 
is the office that serves my veterans, so it is a problem for 
me personally. You mentioned also something about using science 
based criteria for evaluating claims and that having a positive 
impact in terms of reducing the error rate. Could you elaborate 
on that a little bit? I sort of perked up a little bit since I 
have a science background.
    Mr. Sullivan. Yes, Congressman. In three areas, Agent 
Orange, Gulf War Illness, and mental health the acts of 
Congress that mandated the Institute of Medicine to do a 
scientific review of the literature to see, for example, does 
the defoliant poison Agent Orange, is it associated with the 
medical condition? Once the IOM found an association, then VA 
promulgated regulations that then streamlined the claim process 
for veterans suffering from medical conditions such as prostate 
cancer associated with exposure to Agent Orange during service 
in the Vietnam War.
    Similarly science found that deployment to a war zone is 
associated with the development of Post-Traumatic Stress 
Disorder. VA then, at the request of Veterans for Common Sense, 
promulgated regulations that followed science.
    With Gulf War Illness, Congress mandated that the Institute 
of Medicine review toxic exposures and conditions related to 
the War. And now VA, based on reviews by the Institute of 
Medicine, has begun to list medical conditions where there is a 
presumptive basis for the service-connection. That has 
streamlined VA's ability to process claims.
    Mr. McNerney. So would you say that there is room for 
additional research at the VA that would help make our claims 
results more accurate?
    Mr. Sullivan. Yes, Congressman. In the area of Traumatic 
Brain Injury, for example, there is now new and strong medical 
evidence about it. And I believe the Institute of Medicine has 
issued a report on that. And we are waiting for VA to issue 
more regulations on TBI that reflect the long term disabilities 
associated with veterans who survive bomb blasts in war.
    Mr. McNerney. Thank you that is, the TBI bill is my bill. 
So you are giving a little plug for it. You mentioned in your 
testimony that you considered, what you consider to be key 
components of the VBA information technology infrastructure 
that may harm veterans who are represented by lawyers. Could 
you elaborate on that a little bit? How is being represented by 
a lawyer harming their case?
    Mr. Sullivan. Congressman, in our testimony we list that 
veterans service organizations who are colocated at a VA 
regional office enjoy the type of direct, face to face 
interaction with VA rating employees. That is very good. It is 
very helpful. The veterans service organizations are doing very 
great work in that area. However, there is a disconnect. In the 
testimony this morning that Mr. Murphy is about to give, he 
talks about great relationships with the VSOs but does not 
mention that VA should also have relationships with 
practitioners, attorneys and non-attorney agents accredited by 
VA to provide assistance. In other words, non-VSO claims 
representatives. Those representatives are forced to call the 
attorney fee coordinator at the regional office for a status on 
the claim. In some cases the attorney fee coordinator provides 
help. In other cases the attorney fee coordinator does not 
provide help. Or the attorney fee coordinator refers the 
attorney to call the 1-800 number. And the 1-800 number, as we 
know from VA OIG reports, is broken. So there is a difference 
in the level of access by attorneys and agents to the records. 
And that is why our first recommendation is to make sure that 
attorneys and agents representing veterans have full and 
immediate access to veterans' records. This must be a part of 
VA's new computer system.
    Mr. McNerney. Okay, thank you. That is all.
    The Chairman. Thank you very much. Mr. Michaud, any other 
questions? Thank you, Mr. Sullivan. We appreciate your 
testimony.
    Mr. Sullivan. Thank you, Mr. Chairman.
    The Chairman. Now our third panel, Mr. Murphy. Tom Murphy, 
Director of Compensation Service, Veterans Benefits 
Administration for the U.S. Department of Veterans Affairs. And 
Mr. Murphy, we appreciate you patiently waiting and look 
forward to your testimony, sir. And you are recognized for five 
minutes.

STATEMENT OF MR. TOM MURPHY, DIRECTOR OF COMPENSATION SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

                  STATEMENT OF MR. TOM MURPHY

    Mr. Murphy. Thank you, Mr. Chairman. Chairman Miller, 
Ranking Member Michaud, and the Committee, thank you for the 
opportunity today to talk with you on the important partnership 
between the Department of Veterans Affairs and the national, 
state, and county veterans service organizations.
    As VA moves into the 21st Century, this collaboration 
establishes the foundation for providing veterans with the 
benefits they have earned in a timely and equitable manner. 
This partnership focuses on assisting veterans with filing 
disability claims and receiving appropriate compensation for 
service-connected diseases and injuries. Trained claims 
representatives from VA recognized VSOs provide invaluable 
guidance to veterans filing claims and work with employees of 
the VBA to ensure that complete and accurate information is 
available to facilitate correct disability and compensation 
decisions. Office space is provided for these claims 
representatives in all VA regional offices where they assist 
with evidence development, view decisions made by VBA 
employees, and counsel veterans regarding claims and appeals.
    To further the collaborative effort with VSOs claim 
representatives, VBA established a training program and 
certification process. In 2008 the Training, Responsibility, 
Involvement, and Preparation of claims program was introduced. 
This TRIP program was designed to improve overall service to 
veterans by instructing the representatives on the requirements 
for successful claims processing and familiarizing them with 
VBA computer systems. This Web-based course offers multiple 
video lessons, presentations, followed by review questions. The 
course helps participants learn the information needed to pass 
a multiple choice final examination.
    Participants have 45 days from the starting date to 
complete the course, which is accessible at any time. 
Successful completion of the program allows claims 
representatives to be certified and have read only access to a 
number of claims processing related electronic applications 
that follow the development and adjudication of veterans' 
claims. To date, over 4,100 service organization 
representatives have registered for the course, and since 2008 
3,385 representatives have completed the course by passing the 
final exam. TRIP training is a critical part of VBA's goals to 
improve access and transparency to the disability claims 
process and thereby improve efficiency.
    In addition, under VA's accreditation regulations VSOs are 
required to certify every five years that each of their 
accredited claims representatives continues to be of good 
character and reputation and has demonstrated an ability to 
represent claimants before VA. The VSOs must also certify that 
each accredited representative is either a member in good 
standing or a paid employee; is accredited and functioning as a 
representative in another recognized VSO; or in the case of a 
county veteran service officer is a paid county employee; has 
successfully completed an approved course of training and 
examination; and will receive regular supervision or annual 
training to ensure continued qualification as a representative 
in the claims process.
    As the Committee is aware VBA has developed and is now 
implementing its transformation plan, a series of tightly 
integrated people, process, and technology initiatives designed 
to improve veterans access, eliminate the claims backlog, and 
achieve our goal of processing all claims within 125 days with 
98 percent accuracy in 2015. We are confident that we are on 
the right path to deliver more timely and accurate benefits 
decisions to our Nation's veterans.
    VSO involvement in our transformation plan is extremely 
important, especially as we shift from a paper-based to a 
paperless electronic processing system. VBA is committed to 
providing service organization representatives with the tools 
to assist with this transformation. VBA is developing an 
electronic stakeholder entry portal. This portal will enhance 
stakeholder involvement in the claims process in a secure 
environment with identity access tools. VSOs will be able to 
access the SEP which will facilitate the ability to assist 
veterans with online completion of VA Form 21-22 as well as the 
VONAPP direct connect form.
    Additionally, VBA is working with service organization 
representatives to implement the fully developed claim 
initiative. Under Public Law 110-389, VA was directed to carry 
out a one-year pilot program to assess the feasibility of 
processing fully developed claims within 90 days of receipt. 
Based on the favorable results of this pilot, VA expanded the 
fully implemented the program across all regional offices. The 
claims representatives are critical to the FDC initiative as 
they assist in gathering supportive evidence for a disability 
claim and helping the veteran to certify that no additional 
evidence is necessary to make a decision on a claim.
    Service organization representatives are an integral part 
of VBA's transformation plan because of their close personal 
contact with veterans. VBA constantly seeks to improve the 
claims process and service organization representatives serve 
an important role in that effort.
    This concludes my testimony and I look forward to your 
questions.

    [The prepared statement of Tom Murphy appears in the 
Appendix]

    The Chairman. Thank you, Mr. Murphy. I applaud the attempt 
to get to 98 percent accuracy within 125 days. I am somewhat 
skeptical that it can be accomplished in a three-year period 
especially when we hear stories like the ones from Mr. 
McNerney's area where we are talking 300-plus days, a year. Why 
is there such a disparity between some of these processing 
offices?
    Mr. Murphy. The work does not flow in as simple as, it does 
not come into a single location. Each office has an assigned 
territory that comes with it. So the work that flows through 
that office does not necessarily change or stay constant across 
the country. For example, considering Oakland, the rate of work 
there may be different from the rate that comes into Togus, 
Maine, or St. Petersburg, Florida. One of the effects is, how 
do you keep up with the change in the rate of workflow into 
that office while you are dealing with a full-time workforce 
that essentially you would have to realign back and forth 
across the country. The rate of claims that we receive is 
moving faster than we can realign those resources. That is one 
of the reasons.
    The other reason is, it comes down to quality and rework in 
an office. It takes longer to work a case two times, or a third 
time as you are having quality issues than it does to get the 
case right the first time. Which ties back to the Secretary's 
initiative of 98 percent. And one of the major contributors to 
decreasing that processing time is handling a case once, having 
it right, and moving it out the door. That is certainly the 
case that we are seeing in Oakland, for example.
    The Chairman. So Oakland just gets a ton of claims and they 
are all complicated? I cannot imagine St. Petersburg would not 
be in the same boat, with the number of veterans that are in 
that region.
    Mr. Murphy. I am glad you mentioned complicated claims. 
Because the complexity of the case has changed drastically in 
the last ten years. If you go back and look at the history of 
VA as we received a claim for a World War II veteran, for 
example, it had approximately 3, 3.25 contentions. The current 
veteran, a GWOT veteran, is at somewhere around 5.5 
contentions. And then the difference is----
    The Chairman. And why would that be?
    Mr. Murphy. The nature of war today. And not only, and we 
have a much better educated veteran population for one. And 
then the nature of war today is bringing in complexity and it 
is not as simple more contentions. It is the types of 
contentions that are claimed. And the point being that 
Traumatic Brain Injury and Post-Traumatic Stress Disorder, 
although they count as a single contention, each, they are 
significantly more complex and take significantly more time 
than a relatively straightforward evaluation for a knee injury. 
So the point is the number of contentions that we are receiving 
on each case is climbing, and the complexity, the amount of 
time it takes to accurately rate each of those contentions is 
taking significantly more time.
    The Chairman. Do you broker the claims that come in to 
Oakland out to other facilities?
    Mr. Murphy. I cannot speak specifically for Oakland.
    The Chairman. Any facility. I mean, your explanation a 
minute ago was we cannot move people around.
    Mr. Murphy. Yes.
    The Chairman. But you can move cases around.
    Mr. Murphy. We do broker cases around the country, that is 
correct. We have 13 what we call D1BCs, Day 1 Brokering 
Centers. However I have a caveat with those. Those 13 Day 1 
Brokering Centers for 14 out of the last 16 months have been 
dedicated to working the three new presumptive conditions that 
were granted a year ago to clear up the Agent Orange 
presumptives. So those facilities are now returning back into 
the regular production. So we will be able to take advantage of 
some of that brokering around the country.
    The Chairman. Did VA take into account the extra work that 
was going to be associated with the presumptives on Agent 
Orange? I mean it appears that you are trying to say that the 
backlog problem is Agent Orange and the cases that are coming 
in for that. Is that what is gumming up the system?
    Mr. Murphy. To say that that is the sole reason, no. To say 
that it is a contributing factor, yes. And I was a moment ago 
talking about complexity of the claim. And I have to go back to 
the 250,000 approximately cases that were just readjudicated. 
It takes three times as much time for a rater to work one of 
those cases as it does for one of the cases that is coming 
through the traditional routing method. And to put some other 
numbers around that, first so the production is .8 cases per 
day as opposed to approximately 2.5 cases per day, working on 
an Agent Orange Nehmer claim versus working on a traditional 
claim that is coming through. And then the other part of it is, 
to go back and talk about the productivity, those Day 1 
Brokering Centers that I was just talking about, plus others 
that were in the offices, it consumed 37 percent of our 
workforce that was working claims in general. 37 percent of 
those were dedicated to rating those Agent Orange claims.
    The Chairman. Was VA prepared for that?
    Mr. Murphy. I do not know that it is necessarily a question 
of was VA prepared for it. The law requires it, therefore we 
dealt with the law as it was required and laid in front of us.
    The Chairman. What did VA do to prepare for it?
    Mr. Murphy. I can speak from the standpoint of how we 
handled the cases that were laid in front of us in terms of the 
training that we put to it, and the people that we assigned to 
it. And in that one I can tell that we went back in and 
completely redid the entire process, starting with all of the 
people that were working those cases and putting them through 
an intense training program that taught them all of the 
particulars around these three conditions and the requirements 
that we deal with when we are working on cases that are subject 
to the Nehmer court case.
    The Chairman. Did the fact that you put so much emphasis on 
that cause a lack of emphasis on the myriad of other things 
that the raters should have been focused on?
    Mr. Murphy. I would not say that it is a lack of emphasis, 
because there is not a single veteran that comes through the 
door that is not important to us. And the question is more a 
case of how can I take care of all the veterans I have coming 
into the door and not focus solely on one particular population 
of veterans? And to focus on one population is not an 
acceptable answer. So yes, we dedicated some people to working 
on those Agent Orange claims. And then the other 67 percent of 
the population worked the remaining balance of claims coming in 
the door.
    The Chairman. Thank you. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. Thank you, 
Mr. Murphy, for coming. You heard the previous panel talk 
about, NOVA actually recommending that they have full access to 
the claim records by their attorneys. Do you support that?
    Mr. Murphy. Absolutely. Let me take a moment and tell you 
what we are doing to make sure that that happens. We talked and 
several of you mentioned earlier about the stakeholder entry 
portal. The stakeholder entry portal at this point is planned 
to be live before the beginning of the next fiscal year. And 
with that comes access for the veterans service organizations 
and attorneys that are registered with us to access the 
veteran's file.
    Now it is not going to roll out all in a single phase. The 
first one comes out with what we call VONAPP direct connect, 
which is the electronic completion of the VA Form 526----
    Mr. Michaud. Well I just wanted to know if you support 
their recommendations.
    Mr. Murphy. Oh, I am sorry.
    Mr. Michaud. So if you do, that is fine.
    Mr. Murphy. Yes, absolutely. And we are putting the steps 
in place to do that very thing.
    Mr. Michaud. Okay. You had mentioned earlier in response to 
the work load in Congressman McNerney's compared with Togus VA, 
they do shift work load so if it is backlogged in Mr. 
McNerney's district they shift it to Togus to help deal with 
that backlog. So as far as the work load they are able to shift 
that around. The concern is accuracy. And here again when you 
look at the accuracy rates for those at Togus is pretty high, 
has been consistently high.
    Mr. Murphy. Yes.
    Mr. Michaud. And the reason that I maintain is whether it 
is in the VA system or Department of Defense system when you 
are dealing with claims, it makes a difference about whether or 
not the employees working there view that as a choice job 
versus a holdover and they are moving on to somewhere else. And 
so my question is, when you look at those areas that are 
underperforming on accuracy, how has the turnover rate been in 
those particular areas? Is it a high turnover rate in those 
areas? Or do you even track that?
    Mr. Murphy. I do not have the details in front of me to tie 
one versus the other, and I do not know if we have done that 
kind of analysis. But that is certainly one that we need to 
take a look at.
    As you know, we have talked about it for years, it takes us 
two years to grow a new rater. So if you are trying to replace 
a significant percentage of your workforce every year or every 
two years, I cannot get enough journeymen in there to really 
function at that high performing level. So that is a 
consideration and we need to take a long hard look at our 
regional offices and see if there is a correlation between 
those two percentages.
    Mr. Michaud. Yeah. I would be interested in seeing that 
because it could have a big impact. Particularly in rural areas 
where they are employers of choice they tend to do an extremely 
good job because they intend to stay there versus some urban 
area where it is only a holdover for maybe a couple of years 
and then they move on, and that does I think reflect in the 
quality of the work that is currently out there.
    You had mentioned, you know, streamlining the process and I 
have heard concerns actually from veterans in Maine that in the 
effort to streamline the claims process more of the evaluations 
will be done automatically, or automated. One example that was 
given to me was that a nurse will check a box on a form that is 
then read electronically. But additional notes by that nurse 
may have not been used when you look at, you know, in 
determining the evaluation. How can VA ensure that the 
additional input from the evaluator is not considered secondary 
to that checklist? And the second part of that question is how 
should the VA be balancing the timeliness and uniformity with 
accuracy?
    Mr. Murphy. It is a great question on automation and 
looking at a recommended rating decision. And I am saying it 
that way because it is just that. It is not an automated rating 
decision, it is a recommended rating decision based on the 
evidence that is input into the system electronically. And the 
key there, and this is where I have to give credit to the 
veterans service organizations because we have had many 
conversations on this very thing, is in the process when you 
get to the end stages of it you have to have a human involved 
to sit down and do the common sense test. Is this really taking 
me where it needs to be? Is it really, just like you described 
a moment ago, the blocks say this but the text in the bottom is 
the extenuating circumstances that need to be taken into 
account?
    So an automated system is not going to be able to allow us 
to crank through hundreds of thousands of these claims because 
they are all automated coming out the other end. They have to 
just get to a rater, where a rater sits and looks at the whole 
case, considers the whole impact on a veteran, and then a 
person makes the final decision and a rating determination. And 
like I said, I have to give the credit for that one to the 
veterans service organizations to make sure that we stay 
veteran focused on this issue.
    Mr. Michaud. Thank you. Thank you very much, Mr. Chairman.
    The Chairman. Mr. McNerney?
    Mr. McNerney. Thank you, Mr. Chairman. Mr. Murphy, you know 
I am going to ask about Oakland.
    Mr. Murphy. Yes, sir. I do.
    Mr. McNerney. All right. Thank you. Your office recently 
provided my office with some statistics about the Oakland 
Regional Office's performance. As of last Monday the facility 
had 34,756 disability claims pending, and approximate average 
of 313 days. More than 80 percent of these claims sit without 
rating for more than 125 days. That is the second worst region 
in the Nation.
    Some of this may be explainable by Mr. Sullivan's 
testimony, the wave of new claims that are coming in, the 
complexity of the claims. Could you give me an idea of what the 
accuracy statistics might look like from the Oakland office?
    Mr. Murphy. They are at 74 percent currently, in a rolling 
12-month number.
    Mr. McNerney. And how does that compare nationally?
    Mr. Murphy. The national average is at 87 percent.
    Mr. McNerney. So not only are they taking longer times, but 
their accuracy is suffering.
    Mr. Murphy. Let me make one additional comment on there. In 
the last 90 days their quality has gone from 71 percent to 74 
percent. At the same time in the last four months the national 
average has gone from 84 percent to 87 percent. And the point 
is that we are at a very rapid pace of increasing quality to 
include that office.
    Mr. McNerney. So what are you doing at that office 
specifically then?
    Mr. Murphy. I have to tie it back to what we have done in 
terms of training, challenge training which I will talk about 
in just a second, and what we have done with the quality review 
teams. The challenge training, we have introduced an eight-
week, intensive, total immersion program. And out of that 
program, of which there are approximately 950 new raters out in 
the field, those raters are producing work at the time they 
complete the training, which has all been in the last six 
months, every one of these has completed 1.2 cases a day at 
better than 95 percent quality out of those individuals.
    Mr. McNerney. Well I can tell you, I have been confronted 
by veteran constituents who are experiencing long delays. And I 
tell them, ``Hey, the VA is improving.'' And they are suffering 
significant personal hardship. So that is not what I want to 
say, ``Well, our statistics are getting better.'' I want to 
say, ``We are going to fix your case and we are going to fix it 
right now.'' So I want to see more done sooner.
    The VA plans on implementing its transformational system in 
12 offices around the country and yet Oakland is not included 
on that. Could you explain, is there a reason why Oakland was 
not included on that list?
    Mr. Murphy. I cannot explain that to you. I can get you an 
answer for that, but I cannot explain that to you. Can I take 
this in one slight different direction?
    Mr. McNerney. Sure.
    Mr. Murphy. And I completely understand. It is very hard to 
look a veteran in the eye and tell him that you have been 
waiting 330 days but you need to wait more. That is not the 
message we want to give and that is certainly not the message 
the veteran wants to hear. So let me take this in a slight 
different direction and it is not where we are but what are we 
going to do about it? And the answer is we are going to 
completely retrain that office, every single person in the 
service center in the month of June. We are going to run every 
single one of them through an intense focused challenge 
training, which yields the results of just what I was talking 
about a few moments ago out of the other challenge courses. So 
that performance is not acceptable to us either and we are 
taking some drastic measures to ensure that it stops.
    Mr. McNerney. There is no doubt in my mind that that is 
your intention. And I am going to do everything I can to make 
sure I keep on top of this with you. And one of the things I 
want you to let me know as soon as possible, within the next 
week, why Oakland was not chosen for that transformational 
list?
    Mr. Murphy. Yes, sir.
    Mr. McNerney. If that is something that is going to improve 
performance, Oakland is one of the worse performing offices in 
the country, it should be considered. Have you look at the five 
recommendations that Mr. Sullivan proposed for improving 
performance?
    Mr. Murphy. I cannot say that I have read them specifically 
in what he has here, but Mr. Sullivan and I have talked in my 
office on multiple occasions.
    Mr. McNerney. Okay. Well I would like to see if that is, if 
those recommendations are something that you are interested in. 
And if so do they give us legislative ground? Do we need to do 
something here to make sure that that is something that you can 
move forward with?
    Mr. Murphy. Okay.
    Mr. McNerney. Now going back to the Oakland performance 
issue, at what point does the VA, at what point does your 
office take steps when you start seeing performance drop? What 
is a trigger for you to start taking drastic steps to improve a 
region's performance?
    Mr. Murphy. I do not want to sound like I am completely 
ducking the question here, because that is absolutely not the 
intent. But I run the policy and procedures side of this 
business. The Deputy Under Secretary for Operations runs that 
particular side of the business. So I can talk in a very 
general sense of what it is they are looking at and what they 
are doing, but I cannot provide you the great level of detail 
that you require for this. So I will take a shot at what we are 
looking at.
    There are national performance standards that each RO has, 
that each RO director has. And through the area directors up to 
the Deputy Under Secretary level each one of those numbers of 
monitored and reported out each month, and you are looking for 
regional offices that are underperforming as opposed to the 
rest of the slate across the country. And then the area 
directors then concentrate their efforts talking to that 
particular regional office and addressing why their performance 
is outside the norm compared to others.
    Mr. McNerney. Well I would like to see some way for the 
department to evaluate when a regional center is 
underperforming and when steps need to start being taken to 
improve performance. Mr. Chairman, I yield back.
    The Chairman. Thank you very much. Mr. Murphy, with the 
stakeholder entry port will caseworkers from Members of 
Congress be able to access that port? We have asked time and 
time again that our caseworkers be allowed to access a 
veteran's case, eyes only, just to have an opportunity to see 
what is in there, what is not in there, so that they do not 
have to languish in somebody's file box until they make a 
determination and, in Pensacola our office is probably running 
a hundred cases at any given time. It would be a great asset 
for us and I would think an asset for the VA to have 435 free 
caseworkers looking at the case.
    Mr. Murphy. That is a question I need to go back and have a 
discussion with general counsel about. If it is legally 
allowable to do that then we can go down a different avenue. 
But I can tell you honestly that we have not really considered 
that in it because we have been looking primarily at the power 
of attorney, meaning NOVA and their attorneys and the veterans 
service organizations that are appointed on a POA by the 
veteran.
    The Chairman. All of us use case work authorization forms 
and they can be modified in any way to meet whatever legal 
needs that VA would require. But I would appreciate if you 
would look at that. Because, you know, again, usually when a 
veteran comes to us they have been through the ringer for a 
long time. And we want to help them solve their problem. Not 
that everybody prior to us does not want to do the same thing. 
But I think it would be a great opportunity for collaboration 
between our branch and the executive branch to help solve some 
problems, certainly not all.
    Mr. Murphy. Well it certainly makes sense from the 
standpoint of if one of your staff is sitting there having a 
conversation with the veteran, they log in, they press a few 
buttons, and rather than you send it to me and I go look at it 
and come back to you two weeks later, you can give the veteran 
an instant answer on the phone. So I completely understand the 
value with that. And I do need, like I said, I need to discuss 
with general counsel to find out what the legal restrictions or 
limits may be there for us.
    The Chairman. I wish you would and thank you very much. Are 
there any other questions? Thank you for your testimony, Mr. 
Murphy. We appreciate you being with us today. To all of the 
folks that were here to testify before the Committee, we 
appreciate it. I would like to ask that all Members would have 
five legislative days to revise and extend or submit remarks, 
and without objection so ordered. And with that being said, 
this hearing is adjourned.

    [The prepared statement of Carl Blake appears in the 
Appendix]

    [Whereupon, at 12:02 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller
    Good morning everyone. welcome to this morning's hearing. We are 
here today to review the veterans service organizations' roles in the 
disability claims process.
    Initially, I would like to thank the American Legion, who are here 
today, for bringing this topic to the Committee's attention. as was 
noted in a letter sent to me by their National Commander, Fang Wong, 
Veterans Service Officers or VSO's, play an integral role in the 
disability claims process.
    I would like to begin today on a positive note in discussing some 
of the tremendous parts VSO's play on behalf of our Nation's veterans.
    VSOs fulfill an invaluable service to our veterans by aiding them 
in navigating a complex and confusing system to receive their earned 
benefits.
    As I have mentioned numerous times in the past, our veterans put 
their life on the line to defend our liberties and freedoms.
    Just as our servicemen and women fulfilled their duty to serve us 
and our country, we have an equal duty to ensure they receive what they 
have earned.
    VSO's help fulfill this commitment every day by helping veterans 
navigate the disability claims process; very often enabling veterans to 
obtain earned benefits.
    They provide this service free of charge.
    In addition, being represented throughout the disability claims 
process is effective--study after study shows that veterans with 
representation have a greater chance at recovering their earned 
benefits than if they are not represented by a VSO, agent, or attorney.
    I would also like to recognize a positive change in recent years 
which has involved a move towards increased cooperation and partnership 
between VA and the VSOs.
    Placing the veteran and his or her needs at the center of our 
objectives facilitates the spirit of cooperation that we are here today 
to examine and improve.
    I hope to see continued progress in this direction going forward.
    However, part of the oversight function of this Committee is 
ensuring everything is being done to assist our veterans to the extent 
that our resources can realistically permit.
    To this end, in and the spirit of the cooperative mentality I just 
mentioned, it is my hope that we can explore what can be done to 
improve VSO representation throughout all stages of the disability 
claims process, as well as surveying some of VBA's weaknesses in this 
regard. For example, there are enormous challenges with the evolving 
structure of the Veterans Benefits Administration.
    Most of these changes have originated in the process of bringing 
VBA into the 21st century.
    These adjustments present increasing challenges for VSOs and VBA.
    We have a duty to explore the limitation of VSO resources when 
presented with an increased workload resulting from these transitions, 
as well as the result of sacrificing quality in working a claim due to 
the sheer volume and increased complexity of claims received.
    I also intend to investigate some of the weaknesses in the claims 
process itself with respect to the veterans benefits administration.
    The track record over several decades of VBA in implementing 
sweeping improvements to its claims system has been substandard.
    Now, with two wars winding down and an increasingly aging veteran 
population, it is imperative that the much-touted technological and 
training improvements are set up correctly and used efficiently.
    I have vowed that this Committee will continue vigorous oversight 
to see these goals accomplished, and I reaffirm this promise today. to 
this end, I would like to thank all of our witnesses for their 
attendance this morning, as well as for their ongoing service to our 
Nation's veterans.
    I now turn to our Acting Ranking Member for his opening statement.

                                 <F-dash>
              Prepared Statement of Hon. Silvestre Reyes, 
                    Acting Ranking Democratic Member
    Mr. Chairman, thank you so much for holding this important hearing.
    Today we have many well-informed stakeholders in this room with us. 
I thank the VSO witnesses for being here and for their tireless efforts 
on behalf of our Nation's Veterans.
    I see today's hearing as a timely opportunity to focus on bringing 
more solutions to the table about how to improve the disability claims 
processing system to produce better outcomes for our Veterans.
    We all know the problem.
    Over 1.3 million claims and appeals jammed in a flawed processing 
system--in an organization with a current management culture that often 
over-emphasizes production over quality.
    Well, quantity over quality will not work when it comes to our 
Veterans.
    We need to get claims done right the first time--as if a do-over 
was not an option.
    There's no shortcut of getting around the basics--of having well-
trained employees who are empowered with the right tools and the right 
systems to get the job done right the first time.
    That is why I still remain concerned that the work credit system 
may not keep the focus on the Veterans but on churning work.
    VA's claims backlog problems are not new and many of VA's current 
``new solutions'' have already been done in different iterations.
    What is different is that we have Veterans returning home from two 
wars with serious signature injuries like PTSD and Traumatic Brain 
Injury.
    At least 26% of our returning Veterans will suffer from one of 
these injuries which require a huge commitment.
    We have Veterans committing suicide in shameful numbers--the most 
recent figure being 18 Veterans every day. That's one Veteran every 80 
minutes--over 6500 a year.
    That means that before this hearing is over a Veteran will take his 
or her life. That breaks my heart.
    Having any system like the current claims processing system where 
over 65% of claims are in the backlog also breaks my heart.
    We need to get this right so that no claims are languishing and 
Veterans, their families and survivors get the benefits that they have 
earned and deserve without delay.
    Like many of you, I agree with Ranking Member Filner that VA should 
remember that ``VA'' should stand for ``Veteran Advocate'' and not 
``Veteran Adversary''.
    To that end, I am glad that we now have a Secretary who understands 
that part of VA's mission is ``ADVOCACY.''
    I understand that since passage of P.L. 110-389, the Veterans 
Benefits Improvement Act of 2008, the Secretary has been a lot more 
receptive and inclusive of our VSO partners.
    He's done this by including them in meetings on critical issues 
including larger initiatives like VBMS (Veterans Benefits Management 
System) and e-Benefits.
    I understand that there is even a Stakeholder Enterprise Portal 
well underway which may allow the thousands of service officers, 
including our state, local and county service officers to have needed 
access to Veterans' claims information.
    These are all great initiatives but more needs to be done.
    Today, we have received a number of well-thought out and informed 
comments in the testimonies.
    I am confident that VA will take them under serious advisement. I 
warn that in order for these recommendations to receive serious 
consideration, it will require a culture change at VA--one where our 
Veterans receive the benefit of the doubt.
    The VSOs, along with many other stakeholders, are the veterans' 
advocates and VA needs to continue its outreach to make their voices a 
part of its transformation efforts.
    We must continue on a path to making the claims system provided to 
our Veterans first-rate, world-class and uncompromised.
    Where it is done right the first time.
    Thank you. I yield back.

                                 <F-dash>
                 Prepared Statement of Jeffrey C. Hall
    Chairman Miller, Ranking Member Filner and Members of the 
Committee:
    On behalf of the Disabled American Veterans (DAV) and our 1.2 
million members, all of whom are wartime disabled veterans, I am 
pleased to present our views regarding the vital role that claimant's 
representatives, particularly service officers from accredited veterans 
service organizations (VSOs), play in the VA disability claims process. 
Having spent the first seventeen years of my career with DAV in the 
field working as a National Service Officer (NSO), a National Appeals 
Officer, an NSO Supervisor and finally a National Area Supervisor, I 
look forward to providing this Committee some perspectives learned 
firsthand while assisting thousands of disabled veterans and their 
dependents in obtaining the benefits to which they are entitled.
    Mr. Chairman, we are all aware of the significant problems and 
challenges facing the Veterans Benefits Administration (VBA) as it 
seeks to make the benefits claims processing system modern, timely and 
accurate. The backlog of claims pending is too high and the accuracy of 
claims decisions remains too low. While Congress has significantly 
increased resources, funding and personnel over the past several years, 
there have also been major increases in the number of claims filed, the 
number of contentions per claim, and the complexity of rating 
decisions.
    VBA remains focused on the goal set by Secretary Shinseki of having 
zero claims pending more than 125 days and all claims completed to a 98 
percent accuracy standard. And while the elimination of the backlog 
will be a welcome milestone, we must remember that eliminating the 
backlog is not necessarily the same goal as reforming the claims 
processing system, nor does it guarantee that veterans are better 
served. The backlog is a symptom, not the root cause. Just as someone 
with the flu can take aspirin to reduce their high temperature, that 
will not cure them of their illness, nor prevent it from returning in 
the future. For example, VBA could quickly eliminate the backlog of 
claims by denying all of them, or for that matter granting all of them. 
However, neither option would be of benefit to veterans in the long 
run. In order to achieve real and lasting success, VBA must instead 
remain focused on creating a claims processing system that is carefully 
designed to get each claim done right the first time.
    One of the more positive developments in recent years has been the 
open and candid attitude of VBA's leadership towards developing a true 
partnership with DAV and other VSOs who assist veterans in filing 
claims. VSOs have vast experience and expertise in claims processing, 
with local and national service officers holding power of attorney 
(POA) for hundreds of thousands of veterans and their families. In this 
capacity, VSOs are an integral component of the VA claims process, 
operating behind the firewall. Today's hearing is an opportunity to 
review our role, examine ways we might further assist VBA in its work, 
and offer recommendations to improve the claims process based on our 
experience.
    Since 1920 DAV has offered free representation to veterans, their 
dependents and survivors seeking benefits and services from the 
Department of Veterans Affairs (VA) and other government agencies. In 
this capacity, DAV NSOs focus on educating disabled veterans about 
their benefits and the claims process, assisting them with filing 
claims for benefits and then by advocating on their behalf to ensure 
they receive all the benefits and services they have earned through 
their service. DAV and other VSOs also assist VA by reducing their 
workload, ensuring more accurate claims decisions and helping to 
improve and redesign VA's claims processing system.
    DAV has the nation's largest service program with 100 offices 
located throughout the United States and in Puerto Rico. Relying on a 
corps of approximately 240 NSOs and 30 Transition Service Officers 
(TSO), we provide free representation to veterans and their families 
with claims for benefits from the VA, the Department of Defense and 
other government agencies. In fact, DAV represents more veterans than 
all other accredited VSOs combined. In 2011, DAV NSOs and TSOs assisted 
nearly a quarter million veterans and their families with their claims, 
obtaining approximately $6.5 billion in new and retroactive benefits.
    Mr. Chairman, we firmly believe that the key to our success, and 
ultimately the key to VA's success, is the steadfast commitment to 
quality and accuracy in our work, and that begins with an unwavering 
commitment to the education and training of our NSOs.
    The primary responsibility of DAV NSOs is to function as attorneys-
in-fact, assisting veterans and their families with claims for VA 
disability compensation and pension; vocational rehabilitation and 
employment; education; home loan guaranty; life insurance; death 
benefits; health care and much more. NSOs also represent veterans and 
active duty military personnel before Discharge Review Boards, Boards 
for Correction of Military Records, Physical Evaluation Boards and 
other official panels. In addition, DAV NSOs conduct free informational 
seminars and community outreach programs.
    To develop the high level of expertise this job requires, new NSOs 
begin with a rigorous 16-month on-the-job training program, conducted 
by tenured supervisory NSOs with subject matter expertise. Throughout 
their training, DAV closely monitors the progress and knowledge 
retention of NSOs through web-based testing and monthly evaluations. In 
addition to the training provided directly by DAV, NSO trainees must 
also successfully complete academic instruction in Anatomy & 
Physiology, Medical Terminology, Composition and/or Legal Research & 
Writing, and Public Speaking, from an accredited college or university. 
DAV's National Service staff is responsible for developing, 
administering and monitoring the entire training program, as well as 
the instructor's performance and the progress of each NSO trainee.
    NSOs trainees who have successfully completed the first four months 
of training, and passed the requisite tests and other evaluations, will 
begin performing supervised claims work in their fifth month. They will 
continue working on their individual caseload, while continuing to 
receive training and instruction, and must pass a comprehensive web-
based examination every four months on the topics covered for that 
given period. At the conclusion of their 16th month on the job, they 
will be required to pass a comprehensive web-based examination covering 
all of the topics from the entire training period.
    However, DAV training is not only provided to new NSOs as they 
first learn the job, rather DAV training programs are a lifelong 
commitment to achieving excellence throughout an NSO's career. Beyond 
their initial 16 month training, all NSOs must participate in a 
comprehensive Structured and Continuing Training (SCT) program designed 
to keep them up-to-date on changes to the laws and regulations 
affecting veterans' benefits. This training includes not just all NSOs, 
but also all Supervisors and Area Supervisors.
    DAV's SCT program provides in-depth review of laws, regulations, VA 
M-21 and similar manuals, VA Fast Letters, Board of Veterans' Appeals 
practices, as well as opinions of the VA Office of the General Council 
and holdings from the US Court of Appeals for Veterans Claims. 
Moreover, the DAV SCT program delves deeply into the VA Schedule for 
Rating Disabilities (VASRD) by providing a meticulous breakdown of each 
anatomical system and correlating diagnostic codes and ratings. When 
dealing with the complexities of the VASRD, the SCTs accompanying CD-
ROM collection, Special Monthly Compensation ``slide rule'' and case 
studies prove to be extremely useful throughout the NSO's career. In 
fact, there are many outside DAV who have benefited from our SCT 
program; this includes other VSOs and VA employees, as well as DoD 
Physical Evaluation Board members, who have utilized our SCT materials 
to enhance their knowledge.
    All NSOs are required to take pre-tests and then successfully 
complete 32 monthly training modules with post-testing requirements for 
each module. At the end of each month, NSOs must successfully pass web-
based testing in order to move forward in their training. At the end of 
each 16-month period, a comprehensive 160-question web-based test must 
be passed in order to move forward to the second 16-month training 
period, which is delivered in the same manner as the first 16-month 
period. Once an individual successfully completes the entire 32 months 
of SCT training, NSOs have gained a wealth of knowledge and become more 
proficient in their duties. In addition, DAV is the only VSO whose 
training program has been certified for college credit by the American 
Council on Education (ACE), which awards 12 college credits to our NSOs 
upon successful completion of the first 32 months of SCT training.
    However, DAV SCT does not end there, but will continue throughout 
an NSO's career at DAV. When an NSO completes the entire 32-month SCT 
program, they then start the entire training cycle again from the 
beginning, but with the changes, updates and new information that is 
provided by DAV's national training staff who constantly monitor and 
update the course materials. By the time an NSO has 15 years of 
service, they will have completed the SCT training regimen four times. 
We are certain that the high quality of the services we offer are 
directly related to the emphasis we place on lifelong learning for all 
of our service officers.
    By comparison, the VBA training program for its employees, 
particularly Veterans Service Representatives (VSRs) and Rating 
Veterans Service Representatives (RVSRs) is shorter, less rigorous and 
has fewer testing requirements. It begins with an initial orientation 
phase at Regional Offices where new employees will undergo eight weeks 
of ``Challenge'' training providing them a basic introduction to their 
job responsibilities. Although ``Challenge'' training had been four 
weeks long, a couple of years ago it was expanded into a more intensive 
eight-week course conducted at a central training academy near 
Baltimore, Maryland. Recently, however, VBA stopped sending new 
employees to the training academy due to budget constraints on travel, 
and instead is now conducting the training locally, relying on a cadre 
of trainers to conduct and/or oversee the training at each RO. While 
there is certainly merit in a ``train the trainer'' approach, 
centralized training of new employees has unique benefits suited to the 
current transformation taking place at VBA. In addition to providing a 
more focused environment for new trainees to learn their roles and 
responsibilities, it allows a more consistent transmission of new 
cultural values to trainees, particularly the paramount importance of 
quality and accuracy. We have concerns that this change was made 
strictly for short term financial considerations rather than to achieve 
the long-term goal of reforming the claims processing system.
    Since expanding the ``Challenge'' training to eight weeks, VBA's 
policy is to have new VSRs and RVSRs immediately begin working on 
claims after they complete their initial training, although they will 
continue receiving both on-the-job training and mentoring from more 
senior employees in their RO. They also continue with a required course 
of online learning through VBA's Training and Performance Support 
System (TPSS) on subjects such as how to utilize VBAs computer-based 
programs, medical terminology, how to review and interpret medical 
evidence, as well as understanding and applying the law and regulations 
when evaluating evidence and rendering decisions. After they have 
completed all of the TPSS modules for new employees, they will then 
have the same continuing training requirements as all VSRs and RVSRs, 
which consists of 85 hours of annual training. While there are tests 
conducted during the initial training, and there is also a one-time 
certification examination required for all VBA employees, there is no 
regular testing performed to measure the effectiveness of annual 
training, nor is there any other regular testing of employees to ensure 
that they have the knowledge and skills required to successfully 
perform their jobs, or to identify individual or systemic deficiencies 
in the claims processing system.
    Considering the complexity of their jobs, and in order to build a 
culture of accuracy and quality, VBA must ensure that employees 
complete all of their training requirements, and must take steps to 
ensure that they have adequate time to do so. DAV continues to 
recommend that VA significantly increase the hours devoted to annual 
training for all VSRs, RVSRs and Decision Review Officers (DROs). In 
addition, we believe it is essential that all VBA employees, coaches, 
and managers undergo regular testing to measure job skills and 
knowledge, as well as the effectiveness of the training. At the same 
time, VBA must ensure that certification examinations as well as any 
other tests that are developed accurately measure the skills and 
knowledge needed to perform the work of VSRs, RVSRs, DROs, coaches, and 
other managers.
    Due to DAV's training program, our NSOs fully understand VA 
benefits and the disability claims process. Possessing in-depth 
knowledge of pertinent laws, regulations and specific holdings brought 
forth by the United States Court of Appeals for Veterans Claims, DAV 
NSOs educate, assist and advocate for veterans, their families and 
survivors in seeking earned VA benefits. Whether an individual claimant 
visits a DAV National Service Office, Transition Service Office or a 
Mobile Service Office, or corresponds by telephone, mail or e-mail, our 
first interaction with claimants is meant to educate them about their 
rights, their benefits and the process of filing claims. We begin by 
educating a claimant about the benefits to which they are entitled, the 
disability claims process, and most importantly, the evidence needed 
for a successful claim. DAV NSOs and TSOs place a strong emphasis on 
the vital role claimants can play in this process by encouraging them 
to be proactive in gathering as much of the evidence as possible. In 
particular, DAV has worked closely with VBA to promote the Fully 
Developed Claims (FDC) process to our clients, where appropriate. 
Although earlier in the rollout of the FDC program DAV and other VSOs 
had concerns about informal FDC claims, VBA worked with us to develop 
and issue clear guidance on how to establish informal claims under the 
FDC program.
    DAV also encourages all of our claimants, if possible, to seek 
private medical evidence to bolster their claims through the use of new 
Disability Benefits Questionnaires (DBQs), rather than waiting for a VA 
examination to be scheduled and performed. This is another area where 
VBA has been highly responsive to VSOs, allowing us to review and make 
recommendations to improve the format and content of DBQs. However a 
cultural bias within VBA against private medical evidence could limit 
the effectiveness of DBQs. Although the law allows the use of private 
medical evidence, it does not require that it be given equal weight to 
VA medical evidence. As such, we continue to hear reliable reports that 
many VSRs and RVSRs continue to discount medical evidence or properly 
completed DBQs from private doctors, instead ordering unnecessary VA 
examinations, further delaying the process and adding to VBA's burden.
    In order to encourage the use of private medical evidence, Congress 
should amend title 38, United States Code, Sec.  5103A(d)(1) to provide 
that, when a claimant submits private medical evidence that is 
competent, credible, probative, and otherwise adequate for rating 
purposes, including a private medical opinion submitted on a DBQ, the 
Secretary shall not request a VA medical examination. With this new 
language, VA would not have to accept private medical evidence if, for 
example, VA finds that the evidence is not credible and therefore not 
adequate for rating purposes.
    DAV NSOs directly assist claimants for whom we hold power-of-
attorney (POA) in completing all the necessary forms for a successful 
claim. We work with claimants to protect the date of their claim, 
gather and assemble the evidence required to be awarded benefits, 
complete all of the required filing forms, and submit memoranda or 
written argument to accompany and support their claims application. In 
fulfilling these duties, our NSOs improve the quality of the claims 
filed, thereby reducing the workload on VBA. We also reduce the burden 
on VBA's contact offices by interacting with veterans seeking routine 
information or updates on the status of their claims.
    DAV NSOs will continue to advocate for our claimants with VBA 
throughout the claims process. Working directly in VBA Regional 
Offices, NSOs are given 48 hours to review all rating decisions of our 
clients prior to their issuance, which allows us an opportunity to 
interact with the decision makers (RVSRs, DROs and/or RO management) in 
order to advocate for accurate rating decisions. In this role, we act 
as a comprehensive quality control check for VBA, reviewing every 
rating decision affecting veterans for whom we hold power-of-attorney. 
This will be even more important as VBA becomes fully engaged in their 
streamlined rating decisions and notification process known as the 
Simplified Notification Letter or SNL. By catching errors at the RO, 
where they can more easily and quickly be corrected, we not only serve 
our clients, we also save VBA the time and resources they would 
otherwise have expended on lengthy and burdensome appeals.
    There is substantial evidence demonstrating that represented 
veterans receive better and more accurate outcomes than those without 
representation. For example, veterans represented at the Board of 
Veterans' Appeals in FY 2011 were awarded benefits 29 percent of the 
time compared to unrepresented veterans who succeeded less than 23 
percent of the time. Studies have also shown that the average award is 
higher for represented veterans than those without someone to advocate 
on their behalf. In May 2005, VA's Office of Inspector General (VAOIG) 
issued a report (05-00765-137) examining variances in disability 
compensation payments amongst the fifty states. The VAOIG report found 
that the average compensation for represented veterans was $10,631 
compared to an average of only $4,406 for unrepresented veterans. As 
stated in the OIG findings:

       ``Qualified POA representatives provide a valuable service to 
applicants by explaining VA benefits, assisting in completion of forms 
and collection of evidence, monitoring the progress of the claim, and 
representing them in hearings and appeals. The majority of veterans 
receiving compensation have appointed POA representatives.''

    In addition to directly helping improve the quality of claims 
decisions, DAV and other VSOs have been able to help VBA improve and 
redesign their claims process. Over the past few years, we have worked 
increasingly close with VBA on a number of their transformation 
initiatives. We have offered our expert advice to improve DBQs, the 
Veterans Benefits Management System (VBMS), the Stakeholder Enterprise 
Portal (SEP), e-Benefits, the FDC program, and many other pilots taking 
place at ROs across the country. We have and will continue to work with 
VBA as they complete the redesign of the new operating model so that 
claims are accurately processed and adjudicated the first time.
    VBA faces a daunting challenge of comprehensively transforming the 
way it processes claims for benefits in the future, while 
simultaneously reducing the backlog of claims pending within its 
existing infrastructure. While there have been many positive and 
hopeful signs that the VBA is on the right path, there will be critical 
choices made over the next year that will determine whether this effort 
will ultimately succeed. It is essential that Congress provide careful 
and continuing oversight of this transformation to help ensure that the 
VBA achieves true reform and not just arithmetic milestones, such as 
lowered backlogs or decreased cycle times.
    In order to drive and sustain its transformation strategies 
throughout such a massive organization, VBA must change how it measures 
and rewards performance. Unfortunately, most of the measures that VBA 
employs today are based primarily on production goals, rather than 
quality. This bias for speed over accuracy has long been VBA's cultural 
norm, and it is not surprising that management and employees today 
continue to feel a tremendous pressure to meet production goals first 
and foremost. While accuracy has been and remains one of the 
performance standards that must be met by all employees, new 
performance standards adopted over the past two years appear to have 
done little to create sufficient incentives to elevate quality above 
production.
    After two years of development, VBA's new VBMS IT system is planned 
to begin rolling out nationally in the next couple of months. The VBMS 
is designed to provide a comprehensive, paperless, and rules-based 
method of processing and awarding claims for VA benefits, particularly 
disability compensation and pension. As VBA turns the corner on VBMS 
development leading to deployment, it is imperative that Congress 
provide full funding to complete this essential IT initiative. In 
today's difficult fiscal environment, there are concerns that efforts 
to balance the federal budget and reduce the national debt could result 
in reductions to VA programs, including IT programs. Over the next year 
Congress must ensure that the funding required and designated for the 
VBMS is protected from cuts or reprogramming, and spent as Congress 
intended.
    One area of concern that remains unresolved is how VBA plans to 
handle legacy paper claims in the new VBMS work environment. While VBA 
is committed to moving forward with a paperless system for new claims, 
it has yet to finally determine how to handle reopened paper claims; 
specifically, whether, when, or how they would be converted to digital 
files. Because a majority of claims processed each year are for 
reopened or appealed claims and because files can remain active for 
decades, until all legacy claims are converted to digital data files, 
VBA could be forced to continue paper processing for decades. Requiring 
VBA employees to learn and master two different claims processing 
systems--one that is paper-based and the other digital--would add 
unnecessary complexity and could negatively affect quality, accuracy, 
and consistency.
    While there are very difficult technical questions to be answered 
about the most efficient manner of transitioning to all-digital 
processing, particular involving legacy paper files, we believe the VBA 
should do all it can to shorten the length of time this transition 
takes to complete, and should provide a clear roadmap for eliminating 
paper files, one that includes clear timelines and resource 
requirements. While this transition may require significant upfront 
investment, it will pay dividends for the VBA and veterans in the 
future.
    Mr. Chairman, this will be the third year of the VBA's current 
effort to transform an outdated, inefficient, and inadequate claims-
processing system into a modern, automated, rules-based and paperless 
system. VBA has struggled for decades to provide timely and accurate 
decisions on claims for veterans benefits, especially veterans 
disability compensation, however despite repeated prior attempts to 
reform the system, VBA has never been able to reach the goals it has 
set for itself. Critical to VBA's success will be the choices made this 
year, and it is absolutely essential that Congress continue to provide 
strong oversight to ensure that the enormous pressures on VBA to show 
progress toward eliminating or reducing the claims backlog does not 
result in short-term gains at the expense of long-term reform.
    That concludes my statement and I would be happy to answer any 
questions from you or other members of the Committee.
Executive Summary
    <bullet>  Veterans service organizations (VSOs) play an integral 
part in the disability claims process, with local and national service 
officers holding power of attorney for hundreds of thousands of 
veterans and their families. VSOs assist VA by reducing its workload, 
ensuring claims decisions are accurate, and helping to improve and 
redesign VA's claims processing system.
    <bullet>  DAV offers free representation to all veterans, their 
dependents and survivors seeking VA and other government benefits. DAV 
has the largest service program with 100 national offices, and a corps 
of approximately 240 National Service Officers (NSOs) and 30 Transition 
Service Officers who helped file almost 250,000 claims last year.
    <bullet>  DAV NSOs focus on educating disabled veterans about their 
benefits and the claims process, assisting them with filing claims for 
benefits and advocating on their behalf to ensure they receive all 
their earned benefits. Evidence shows that represented veterans receive 
more accurate outcomes with higher average awards than unrepresented 
ones.
    <bullet>  The key to DAV's success, and ultimately the key to VA's 
success, is a steadfast commitment to quality and accuracy of our work, 
which begins with an unwavering commitment to the education and 
training of our NSOs.
    <bullet>  The Veterans Benefits Administration should significantly 
increase the hours devoted to annual training and require all 
employees, coaches, and managers to undergo regular testing that 
measures their job skills and knowledge, as well as the effectiveness 
of the training itself.
    <bullet>  In order to encourage the use of Disability Benefit 
Questionnaires, Congress should amend title 38, United States Code, 
Sec.  5103A(d)(1) to provide that due deference is provided to private 
medical evidence that is competent, credible, and adequate for rating 
purposes.
    <bullet>  In order to drive and sustain its transformation 
strategies, VBA must change how it measures and rewards performance to 
emphasize accuracy and quality over production.
    <bullet>  Congress must ensure that the funding required and 
designated for the Veterans Benefits Management System is protected 
from cuts or reprogramming, and spent as Congress intended.
    <bullet>  VBA must transition as quickly as feasible to a fully 
digital processing system, which may require significant upfront 
investment, but will pay long term dividends for veterans.

                                 <F-dash>
                  Prepared Statement of James D. Wear
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE:

    On behalf of the more than 2 million men and women of the Veterans 
of Foreign Wars of the United States (VFW) and our Auxiliaries, I would 
like to thank you for the opportunity to testify today regarding the 
Veterans Service Organizations' role in the disability claims process.
    In 2011, the Veterans of Foreign Wars (VFW) helped more than 97,000 
veterans and survivors receive over $2 billion in compensation and 
pension benefits. In addition, in FY 2011 the VFW represented more than 
3,700 appellants at the Board of Veterans Appeals. Our allowed rate 
(one or more issues granted on appeal) of 30.7 percent was second 
highest among the major veteran service organizations. Our allowed rate 
was higher than that achieved by attorneys. It was fully eight 
percentage points higher than veterans who had no representation.
    We are proud of these achievements. They show that representation 
by our service officers and appeals consultants \1\ clearly helps 
veterans and other claimants perfect their claims and obtain the 
benefits to which they are entitled under the law.
---------------------------------------------------------------------------
    \1\ Accredited VFW employees are called ``service officers'' and 
``claims consultants''. In practice, the only distinction is that a 
``service officer'' is a veteran who is also a member of the VFW; a 
``claims consultant'' is an individual who is not eligible for 
membership in the VFW. Their representational duties are the same. For 
simplicity sake, ``service officer'' in this testimony refers to both 
positions.
---------------------------------------------------------------------------
    However, we are not alone in this work. The American Legion, 
Disabled American Veterans and the Veterans of Foreign Wars represent 
nearly 1.6 million veterans and survivors already receiving 
compensation, pension or DIC from VA. Together, we represent tens of 
thousands more with claims and appeals awaiting decisions from VA.
    As part of this process, we answer millions of telephone calls and 
emails a year. We interview hundreds of thousands of individuals 
annually, explaining what benefits they may or may not be entitled to, 
help them complete forms, assist in developing claims, review VA 
decisions, identify errors, and work with VA to get them corrected.
    We provide all these services to veterans and the VA for free. We 
do not take a dollar in grants or payment from the Federal government 
to provide these services. We do these things because we recognize that 
the laws and regulations dealing with veterans benefits are often 
complex; the claims process is often treacherous to navigate. We do 
these things because veterans have already sacrificed for our country 
and whatever assistance they receive from our government should not 
require additional struggle and turmoil.
    We readily acknowledge that nearly all VA employees are dedicated 
to doing the very best they can for veterans, we also realize that they 
are, at present, overwhelmed with over 1.5 million pending 
compensation, pension and education claims, and over a quarter of a 
million pending appeals. \2\ They are people working within an 
extraordinarily complicated and frequently archaic claims processing 
system. Since there are few automated quality controls, they are 
dependent on both how much they know and how well they apply it to 
their work. In short, VA decision makers are human; they make mistakes.
---------------------------------------------------------------------------
    \2\ Monday Morning Workload Report, April 9, 2012, http://
www.vba.va.gov/reports/mmwr/
---------------------------------------------------------------------------
    Quality of decision-making is problematic. A review of the latest 
quality data for ratings indicates that the best regional office 
(Lincoln, NB) has a four percent error rate. The national average has 
remained nearly stationary at 16 percent for months. Recent changes in 
the Baltimore regional office, still the worst in the nation, have 
resulted in significant improvement (for it); errors occur in ``only'' 
29 percent of its rating decisions, down from a 33 percent error rate 
just a few months ago.
    The VFW has nearly 1,300 accredited individuals. Most of these are 
county and state employees who provide assistance to veterans and 
survivors who have given the VFW their power of attorney (POA). Service 
officers employed by the VFW and work within VA regional offices number 
245. This is the group that receives specialized training and routine 
information dissemination from our national office in Washington 
concerning changes in law, regulations, VA procedures or court 
decisions.
    New VFW service officers are given a 40 hour classroom ``boot 
camp'' where they receive intense training in all VA benefit programs, 
with a special emphasis on compensation and pension. They are also 
taught representational skills; they learn about the appeal process. We 
give them the basic knowledge they need to intelligently discuss 
disability and survivor benefit programs with claimants, help them fill 
out appropriate forms, tell them what evidence is needed to complete 
their claim, outline the claims process within VA and other things.
    Training does not stop there. Every VFW service officer who works 
within a VA regional office is required to attend training each year. 
This training is very technical in nature, with a heavy emphasis on 
topics related to the rating schedule. Most of our trainers are 
recently retired VA subject matter experts who provide instruction as 
good as or better than that received by VA employees. Our goal is to 
ensure our service officers know VA laws and regulations as well as or 
better than the VA employees with whom they deal with in their offices. 
Once a problem with a decision has been identified, we expect our 
service officers to use the facts, laws and regulations to convince VA 
to change the decision in favor of the claimant.
    In all, we provide approximately 80 hours of classroom training 
each year to VFW service officers who work within VA regional offices. 
\3\
---------------------------------------------------------------------------
    \3\ In VA Fast Letter 11-04, VBA mandated 85 hours of continuing 
education for their claims processers. Unlike our training, only a 
portion of VBA's mandatory training is classroom training.
---------------------------------------------------------------------------
    Change does not stop between training conferences. The Veterans 
Benefits Administration (VBA) frequently adds or modifies regulations 
and policies dealing with its benefit programs. The VA Office of 
General Counsel, the Court of Appeals for Veteran Claims, the Court of 
Appeals for the Federal Circuit and others publish decisions which 
change how VA works. Our national staff is constantly monitoring the 
various sources of change to identify those things which may affect 
veterans. We analyze these changes, discern how they might impact 
veterans benefit programs and then notify our service officers of the 
change and what it means to them. These Updates are distributed several 
times each month. This is how we keep our service officers up to date.
    Veteran service officers offer a host of services to veterans, 
dependents and survivors. While each claimant is different and has 
different needs, the veteran service officer performs the following 
roles:

    <bullet>  Information dissemination--Generally, the first contact a 
service officer has with a claimant is either in person or on the 
telephone. The veteran has questions, concerns or problems. The service 
officer must identify each issue and provide the most accurate 
information available. Veteran service officers often perform outreach, 
meeting groups wherever they might gather. This typically involves 
talking about the things which are likely to interest the group, then 
taking specific questions after the conclusion of his remarks.
    <bullet>  Claims intake and preparation--This can be done either in 
person or on the phone. It is most effective when the claimant can sit 
down with the service officer. This allows the service officer to 
review available records as the application for benefits is being 
completed. The service officer asks questions and helps the claimant 
focus the issues. It is also an opportunity to begin to discussing what 
evidence is needed to perfect the veterans claim.
    <bullet>  Facilitator/aid in development--A well trained service 
officer will usually know what evidence the VA needs to favorably 
consider the claim. He/she should tell the veteran what that evidence 
is and explore with him just how that evidence can be obtained. This is 
also an opportunity to begin to manage expectations of the claimant.
    <bullet>  Problem resolution--informal intermediary to clarify 
issues, obtain evidence--VA employees know who the good service 
officers are, and they use them to help expedite claims. It is not 
unusual for a VA employee to alert a service officer of the need for a 
particular piece of evidence in order to make a decision (e.g., ``If 
you obtain this piece of evidence, I think I can grant the claim.'') 
This type of communication acts as an incentive for both the service 
officer and the veteran to obtain that evidence and submit it quickly. 
This type of informal interaction becomes a win-win for VA and 
veterans.
    <bullet>  Final quality control of VA decisions--Long established 
VBA policy requires that proposed rating decisions be provided to 
service officers holding veterans power of attorney for at least two 
business days. During that period service officers have an opportunity 
to review not just the rating, but also the record on which the rating 
was based. Any errors identified during this review are brought to the 
attention of either the rater who made the decision or a designated 
supervisor. This process is designed so that errors can be corrected 
before the rating is sent to the veteran. While some local VA managers 
occasionally try to reduce or eliminate this review period, VBA 
leadership has always recognized the importance of this step and have 
taken corrective action when necessary.
    <bullet>  Counselor/interpreter of VA decisions--Not every decision 
made by VA is favorable to veterans. There are times when the evidence 
and the law do not allow VA to grant the benefit sought. One of the 
jobs of a service officer is to explain decisions to claimants in ways 
that they will understand. They discuss the problem which forced VA to 
deny the benefit sought and explain what evidence is necessary to 
obtain a different decision in the future.
    <bullet>  Appellate counselor--Sometimes the VA just makes a wrong 
decision. When that happens the service officer discusses appellate 
options with the claimant and helps him/her file a notice of 
disagreement when appropriate. During the appeal process the service 
officer may discuss the case with a Decision Review Officer, represent 
the veteran on appeal and write an argument on behalf of the claimant 
to the Board of Veterans Appeals.
    <bullet>  Representation at the BVA--The national Veterans of 
Foreign Wars maintains a staff of highly trained appeals consultants at 
the Board of Veterans Appeals. Their job is to review the case when it 
comes to the Board, formulate the best possible argument on behalf of 
the appellant. They also represent appellants in personal hearings 
before Veteran Law Judges at the Board. As mentioned above, we helped 
appellants obtain reversals by the Board in 31.7 percent of the appeals 
considered in 2011.

    VA is in the midst of tremendous change. Historically, 
technological advances in VA have been done in fits and starts. Three 
phase plans often failed to move beyond the second phase. Even when new 
programs were rolled out in the last two decades, they were often 
deployed long before adequate testing was completed, leaving users in 
the field with programs which required thousands of man-hours to fix.
    However, VBA appears to be moving forward today with IT programs 
which promise to speed processing while finally introducing tools which 
promise to improve quality. We welcome this progress. We hope that VA 
has learned lessons from its past and from private industry which will 
allow it to implement change with minimal negative impact on its 
employees, service officers and veterans.
    It is important to understand that veteran service organizations 
are both advocates for veterans and partners, or stakeholders, with VA. 
In order for us to do our job effectively, we must have access to VA 
computer systems, records, facilities and personnel. Without this 
access, we might as well stand on the curb and shout at regional office 
buildings.
    Our relationship with Secretary Shinseki and VBA leaders has 
steadily improved over the last four years. VA has shown progressively 
greater transparency in many of the things it does. We have tried to 
demonstrate to VA that while we are advocates for veterans and will 
hold VA accountable for doing its many and varied jobs, we are also 
willing to work with VA to help ensure that change, when it occurs, is 
at least neutral in its effect on veterans. More importantly, we seek 
to identify win-win opportunities: opportunities for improvement which 
help both VA and veterans. A recent development within VBA illustrates 
both the difficulties and benefits of working closely together to 
achieve win-win situations.
    Last summer VBA deployed elements of what has now become known as 
the Simplified Notification Letter. In its earliest manifestation, VA 
rolled back the clock to 1945 and began issuing rating decisions which 
looked remarkably like those written at the end of WWII. Decisions did 
not contain a discussion of the evidence considered or an explanation 
of the reasons for the decision made - commonly referred to as 
``reasons and bases.'' Decisions granting an evaluation did not contain 
a summary of the rating criteria used to assign the evaluation nor an 
explanation of what was needed to obtain the next higher evaluation. 
These elements are required by VA regulations and court decisions. The 
explanation for these changes was that it allowed raters to increase 
production by 30-40 percent.
    National service organizations were not consulted on these changes. 
When we became aware of them, the VFW went to the VA regional office in 
Atlanta to review both the ratings and notification letters to 
veterans. We discussed our findings with project managers who made a 
few changes to the program which provided additional, but very generic, 
explanations to veterans.
    These changes did not, in our view, meet regulatory and court 
mandated requirements for explaining VA decisions to veterans. In order 
for a veteran to understand a decision and determine whether it was 
correct or not the law requires that he/she be provided certain 
information. We believed this program failed to provide veterans with 
the information required by law. We continued to press VA on this 
program.
    To their credit, VA made additional modifications and information 
was added. Both the VFW and DAV continued to object to this program 
because notice remained inadequate. It was only in the last few months 
that we were all able to arrive at a point where the notice provided by 
VA, when properly done, was adequate to satisfy our concerns, while 
allowing VA to achieve increased production without further degradation 
of quality.
    We work with VBA at the national level almost daily. The VFW and 
representatives from the largest veteran service organizations have 
been meeting with VBA on a number of initiatives, including eBenefits 
(working on ways to improve functionality and customer satisfaction for 
veterans) and the Veterans Benefits Management System (VBMS) (to ensure 
the needs of veterans representatives are addressed in VA's next 
generation claims processing system).
    We recognize and support VBA's plans on expanding customer and 
service organization interaction with VA. VA has plans to allow 
claimants and service officers to submit information and claims 
electronically. VA indicates that it embraces the idea of permitting 
veterans to change their contact information, such as an address or to 
report changes in income (for pension) and add or subtract dependents 
by computer. Any initiatives which allow claimants and their 
representatives to submit data electronically or to effect minor 
changes to awards based on user input, portends great savings in time 
and money to VA, while offering enhanced service to veterans. The VFW 
looks forward to continuing and improving our working relationship with 
VA to find common sense solutions to reducing the claims backlog, while 
improving rating decision outcomes.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions that you or the members of the Committee may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2012, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                  Prepared Statement of Randall Fisher
    Chairman Miller, Ranking Member Filner and distinguished Members of 
the Committee:

    Thank you for this opportunity to come before you today to discuss 
the critical role of Veterans' Service Officers in the Department of 
Veterans Affairs (VA) Disability Claims Process. Service Officers are 
an often overlooked component of the claims process, yet we are the 
front line soldiers in the battle for ensuring veterans receive the 
benefits they deserve. On behalf of over 2,000 accredited service 
officers of The American Legion, I am honored to be able to relate to 
you the lessons learned through our struggles to get benefits for those 
who have become disabled or have earned other benefits in their service 
to this great nation.
    This committee has dedicated a great amount of focus to how VA 
operates in coping with a growing backlog of veterans' claims. As 
service officers who daily see the massive scale of the challenges 
facing VA, we are sympathetic to those men and women who work hard to 
deliver these earned benefits to the veterans of America, and we 
believe there are lessons VA could learn from our own experiences. In 
part because of the dedication of this committee in giving voice to the 
concerns of service organizations such as The American Legion, the VA 
is now engaging in greater dialogue with the overall veterans' 
community to solve our mutual challenges.
    The problem is staggering. As of March 31, 2012 according to VA's 
own figures, there are 897,556 claims currently pending for benefits. 
Of that figure, more than 65 percent, a total of 589,483 of those 
claims have been pending for over 125 days. For the past several years 
VA has received over a million claims for benefits each year. In order 
to tame this rising backlog we recognize we will all have to work 
together.
    The service officers of The American Legion believe there is a path 
to success, and that path is dependent on being veteran-centric, 
placing a high priority on training and understanding the operation of 
the claims benefits system, and examining the work credit system to 
ensure it helps foster an environment suited to getting the claims 
processed properly the first time. We believe if VA makes a commitment 
to adopting these principles in working with the veterans' community, 
they will remain ahead of the fight in the battle to tame the backlog.
Veteran-Centric Approach:
    American Legion service officers are made up almost entirely of 
veterans. We understand the plight of veterans because we are veterans. 
Perhaps the greatest role a service officer plays in the process a 
veteran goes through in order to receive disability benefits is as a 
translator. We are not only able to translate the military experience 
of the veteran to VA employees, many of whom are not veterans 
themselves, we are able to translate the bureaucratic language of the 
VA back to veterans often confused by arcane complexities within the 
legal process of the claims system.
    As a veteran, you have instant understanding and recognition of the 
language spoken by military veterans and utilized in military 
documents. Whether we are understanding abbreviations used on a DD-214 
discharge document or understanding the nature of noise exposure 
suffered by a lance corporal assigned to an artillery unit, we know how 
to read a veteran's file because the language of the military 
subculture is our native language.
    On a more personal level, when a veteran enters our office to speak 
to us about their claim, they know they are talking to a brother or 
sister service member. For lack of better terminology, we establish 
trust with the veterans because they know we ``get'' them. The shared 
sacrifice of shared service is a strong bond. For many veterans, 
dealing with VA can be dealing with a faceless bureaucracy, no 
different from interacting with the Department of Motor Vehicles. 
Sitting down with a service officer to talk about your claim is sitting 
down with a real person who has seen the same military you served in. 
Trust goes a long way.
    The American Legion has continually advocated for a greater role of 
veterans within VA. This is helpful on many levels. As a trust issue, 
it enables veterans to know they are dealing with someone who comes 
from their background and is instantly perceptible as an ally in their 
fight for benefits. From a technical perspective it is immeasurably 
beneficial to be able to sight read military records, to know at a 
glance what all the parts of a discharge examination should look like 
and to be able to tell, not only what's present in a military file, but 
what's missing. Finally, veterans have served their country once by 
standing up and reciting the oath that inducted them into military 
service. Working in the claims benefits system, whether for VA or for a 
service organization such as The American Legion, gives them a 
continued opportunity in their life to provide service to their country 
and fellow service members. In the end it represents more jobs for 
veterans of all ages and eras, critically important when veterans of 
all ages are suffering from disproportionally high unemployment.
    As service officers we also act as translators back to the veterans 
when they receive contact from the VA. While VA is making strides in 
contacting veterans to explain such notoriously complicated documents 
like routine VCAA letters, the task of ``interpreting'' this language 
often falls to the service officer. This is our job, to understand what 
the VA is asking for, even if the legal dialect makes it less than 
clear. Because, day in and day out, we must analyze claims before the 
VA, we are sometimes the best person to read through that letter and 
tell the veteran what is really missing with their claim.
    This ultimately can save work for VA as well. With an unrepresented 
veteran, the confusing nature of the letters often leads to veterans 
submitting redundant or unnecessary information, adding further clutter 
and confusion to the claims file. For example, in a case where VA 
acknowledges a veteran's present condition of diabetes, but requires 
further proof that the veteran was ``on the ground'' in Vietnam, it is 
not uncommon for an unrepresented and uninformed veteran to become 
confused and send VA more current medical information about the level 
of disability presented by their diabetes, missing the crucial request 
from VA for clarification on their service in Vietnam. A trained 
service officer can better communicate that need to the veteran, 
reassuring them that VA recognizes the extent the diabetes is affecting 
their daily life, and directing the veteran's research to proving their 
ship docked in the harbor which would grant the point of service 
connection still under contention.
    The process works both ways. We are not only impassioned advocates 
on behalf of a veteran's claim; we are also facilitators for the VA in 
delivering understanding to the veterans of the claims process and 
where the work needs to be best directed. We accomplish this so 
effectively because we speak the language of veterans. We accomplish 
this because we are veterans.
Training:
    Being a veterans' advocate is like being a doctor and lawyer all 
rolled into one. This is a technical and sometimes confusing and 
complicated business. The veterans' disability system is unlike any 
other system of disability and requires specialized knowledge. You have 
to understand how to read doctors' examination notes and how to piece 
together fragments in incomplete military records. Moreover you have to 
understand not only a convoluted section of the United States Code, but 
also remain up-to-date on current precedential decisions being handed 
down by the Court of Appeals for Veterans Claims (CAVC).
    Maintaining a level of expertise in all of these areas and more 
requires a dedication to training. The American Legion provides 
national schools for its service officers twice a year, in Washington, 
DC and in Indianapolis. These multiday schools are intensive and a 
great resource. By coming together we not only get targeted training 
based on evaluation of emerging concerns and changes, but we also 
interact regularly with our fellow service officers to share best 
practices and relate patterns we are witnessing in the VA system 
overall. The training is not limited to those schools either; it is an 
ongoing process, facilitated with regular updates and it has a high 
priority in proportion to work.
    Too often in speaking to VA employees we hear of training as an 
afterthought, something that gets in the way of working. We are 
encouraged to work in a culture that respects the training as a toll 
essential to getting our work done, rather than an obstacle to getting 
that work done. We hear VA employees at the Regional Offices dismiss 
cases by the CAVC as ``something the Board [of Veterans Appeals] deals 
with, not the RO'' when unfortunately that is far from the truth. If 
Regional Offices better implemented the precedential decisions from the 
CAVC at the local level, claims wouldn't have to go to the Board. They 
could be settled right there at home for the veteran. We could cut a 
lot of the backlog down with some better training for VA at the 
Regional Office level.
    Our training is often based on the common problems we see coming up 
again and again in the claims process. We train on understanding VA 
examinations because of the number of times we see exams come back 
improperly, with the wrong forms filled out or the wrong conditions 
examined. We train on areas of the rating schedule where there appear 
to be inequities, such as mental health disorders where ratings can be 
uneven and even seemingly random. We train how to understand what to 
look for so we can best advocate and explain to VA why the veteran 
deserves the rating we believe the evidence supports.
    VA could learn from this and use this as a model to construct their 
training. If an outside organization can base training off of common 
errors and recent court decisions, VA should be able to manage a 
training program that is targeted to common errors found in STAR 
evaluations and in trends discovered through overturned appeals. 
Especially as they convert to their electronic Veterans Benefits 
Management System (VBMS) they should have even more tools to track 
where training is needed and make it the priority it needs to be. VA 
needs to examine the mindset service organizations have taken, which is 
that taking the time necessary to train does not detract from the 
ability to work, but rather enhances the ability to get the work done 
right.
Work Credit System:
    Much of the inherent culture at VA revolves around the number of 
claims completed. Unfortunately it is somewhat lacking in the critical 
accuracy component of getting the claim done right. We work in the same 
Regional Offices as the VA employees. We hear their complaints all the 
time too. Accuracy and training just don't merit the same consideration 
as meeting the quotas and getting the right number of claims done each 
week.
    As service officers, we are sympathetic to the case loads. We have 
to look at every case file for every veteran we see as well. The 
difference is we know that if we miss something we're letting a fellow 
veteran down. Yes, it might take a little bit longer to go over that 
claims file and make sure everything is in order and we got the claim 
done right. However, we also know if we got it done right, that claims 
file is not coming back to our desk again. When you take the time to 
get a claim right the first time, you are actually saving yourself work 
down the road.
    The VA employees deserve a tracking system for claims that will 
reflect that mentality. We can see the numbers VA posts proudly on 
their national website every Monday morning. Those numbers track the 
number of claims they complete. VA needs to show their employees they 
are just as committed to quality by making a system that tracks more 
than just raw claims. There must be some way to factor in accuracy and 
to account for the needed training.
Recommendations:
    These categories represent a broad overview of the mentality and 
work environment when a service officer tackles the task of 
representing veterans for their deserved disability benefits. There are 
a couple of simple lessons VA can learn from how we do business that 
will hopefully help them achieve their stated goals of 98 percent 
accuracy and no claim pending more than 125 days:

    <bullet>  Hire more veterans. Veterans bring immeasurable useful 
experience to the job and they present a face for a veteran accessing 
the system that tells them this is someone who understands their 
suffering and is there to help them.
    <bullet>  Make training a priority. You can't do the job if you 
don't know how to use the tools.
      I  VA training planners need to adopt the models used by VSOs and 
develop training targeted to weaknesses and that is current to the 
changes in law, regulation and decisions by the higher courts.
      I  Training also needs to have the same priority as the other 
activities of work. Taking time away from working on a claim is okay if 
you need that time to make sure you process that claim properly.
    <bullet>  Reevaluate the Work Credit System.
      I  Accuracy needs to have the same priority as raw numbers.
      I  Training needs to be better integrated into the time 
management system.
Summary
    None of these challenges is insurmountable. We are all in this 
together, whether we're a VA employee, a service officer or a veteran 
seeking a benefit. We have to work together.
    Service officers are passionate about our veterans because we see 
them and speak to them on a daily basis. In many ways we are the public 
face of the disability process for veterans, or at least the human 
face. When you field a call from a veteran every week hoping for an 
update on their claim, it can be heart rending, knowing how close to 
the edge some of these veterans are, knowing how much a difference 
resolving their claim can make for them. For a service officer, a 
claims file can never become just a number in front of you because you 
can always see the human face of who is being affected.
    That is why it is important for us to express our experience from 
years in the trenches. On behalf of the service officers accredited by 
The American Legion and on behalf of The American Legion itself, I 
thank you for taking the time today to listen to our testimony and 
consider our input into the puzzle of solving the claims backlog.
Executive Summary
    Service officers are the front line of defense in many ways for 
veterans trying to navigate the disability claims system. They are the 
human face who interacts on a daily basis with veterans to translate 
the demands of VA to the veteran and to translate the military 
experiences and sacrifices of the veteran to the VA. Due to this unique 
position as go-between for veterans and VA, service officers have some 
insight to offer in terms of improving VA's performance in dealing with 
veterans' benefits.
    <bullet>  Be more veteran-centric. Hire more veterans who can not 
only easily speak and understand the language of veterans, but also 
present a friendly and familiar veteran face to the community of 
veterans seeking aid from VA.
    <bullet>  Overhaul VA training.
      I  Ensure the training is targeted to common errors identified by 
STAR and other methods.
      I  Ensure training reflects ongoing developments in the CAVC and 
with law and regulation changes.
    <bullet>  Reexamine the Work Credit System.
      I  Place Accuracy on a level with Raw Output.
      I  Make sure the work credit system accounts for training time 
necessary to the schedule.

                                 <F-dash>
                  Prepared Statement of Paul Sullivan
    The National Organization of Veterans' Advocates (NOVA) thanks 
Chairman Jeff Miller and Ranking Member Bob Filner for the opportunity 
to testify about the disability claim process at the Department of 
Veterans Affairs (VA). NOVA is honored to share our views for this 
hearing, ``From the Inside Out: A Look at Claims Representatives' Role 
in the Disability Claims Process.''
    NOVA is a not-for-profit 501(c)(6) educational membership 
organization incorporated in the District of Columbia in 1993. NOVA 
represents more than 500 attorneys and agents assisting tens of 
thousands of our nation's military Veterans, their widows, and their 
families obtain VA benefits. This statement was reviewed and approved 
by NOVA's Board of Directors. I testify today as an employee of 
Bergmann & Moore, LLC, a Bethesda, Maryland law firm representing 
Veterans' whose disability claims were denied before VA and the U. S. 
Court of Appeals for Veterans Claims (CAVC). Partners Glenn Bergmann 
and Joe Moore are both NOVA members, and Joe Moore also serves on 
NOVA's Board of Directors. Glenn Bergmann, Joe Moore, and I all 
previously worked for VA.
    NOVA members represent Veterans before all levels of VA's 
disability claim process. This includes the Veterans Benefits 
Administration (VBA), the Board of Veterans' Appeals (BVA, or 
``Board''), the CAVC, and the U.S. Court of Appeals for the Federal 
Circuit (Federal Circuit). In 2000, the CAVC recognized NOVA's work on 
behalf of Veterans when the CAVC awarded the Hart T. Mankin 
Distinguished Service Award to NOVA in 2000.
    Our main goal for this hearing is to continue our strong working 
relationship with Congress and VA so our Veterans receive timely and 
accurate disability compensation claim decisions from VA. Receipt of 
timely benefits remains vital for the Veteran's economic security as 
well as opening the door to free VA medical care. NOVA believes the 
``Veterans' Choice of Representation Act,'' part of the ``Veterans 
Benefits, Health Care, and Information Technology Act of 2006'' (Public 
Law 109-461) works as intended. The 2006 law eliminated the prohibition 
on the charging of fees for services of an attorney or agent provided 
before the Board of Veterans' Appeals makes its first final decision in 
a Veteran's case.
NOVA's Training Seminars for Attorneys and Non-Attorney Agents
    At NOVA, our primary purpose is providing quality training to 
attorneys and non-attorney practitioners who represent Veterans, 
surviving spouses, and dependents. NOVA offers four types of training.
    Our primary type of training is our seminars held twice each year. 
These events are attended by hundreds of attorneys and non-attorney 
agents. Our seminars include presentations by leading practitioners and 
experts about VA's disability claim process. Guest speakers at NOVA 
training seminars often include academics as well as top VA and CAVC 
leaders. Our seminars provide Continuing Legal Education (CLE) credits 
for attorneys. NOVA membership requires completion of our seminars 
every two years.
    A second type of training is NOVA's ``Beginner's Guide to Veterans 
Law.'' These DVDs are essential for those just beginning a Veteran 
disability claim law practice. Last year, NOVA began offering our third 
type of training feature, NOVA webinars, where attorneys and agents can 
learn about Veteran law via the internet and receive CLE. And, finally, 
NOVA members are able to access a heavily used private on line bulletin 
board to ask questions of more experienced attorneys, share practice 
tips, and keep updated on new case law and VA regulations.
NOVA Interaction with Veterans
    When Veterans contact NOVA for assistance, NOVA's interaction 
remains limited to providing referrals to our NOVA members listed on 
our web site. Each of our NOVA members operates independently, so there 
are different procedures regarding intake, screening, and acceptance of 
cases. Because of their legal training, experience, and focus on 
Veteran law, after a review of the Veterans' claim file, NOVA attorneys 
know when Veterans' claims have merit.
    As trained litigators, NOVA members assist Veterans by obtaining 
vital military service records, military medical records, and 
independent medical opinions regarding Veterans' medical conditions. In 
cases where veterans have significant impairment, such as mental health 
conditions and brain injury, these attorney-provided services are 
essential in order to win the Veteran's claim. In many instances, NOVA 
members' representation of Veterans results in significant changes in 
the case law which improves the likelihood future veterans will receive 
appropriate, prompt, and full disability compensation.
The Current System's Challenges
    NOVA appreciates the significant, recent, and bi-partisan increases 
in appropriations for VA as well as consistent Congressional oversight 
of VA activities. While VA continues improving in many areas, several 
other areas urgently need the attention of Congress. The area in most 
need of immediate improvement is VA's overwhelmed and beleaguered 
disability claim processing system.
    The areas of greatest concern for NOVA are VBA's inability to 
provide prompt and full access to records and VBA's unconscionably long 
delays in claim processing. Our testimony provides several 
recommendations to overcome these obstacles interfering with our 
ability to properly represent Veterans.
    VBA's delays are legendary and worsening. At the Regional Office 
level, Veterans wait an average of more than seven months for a 
decision. As of April 16, 2012, more than 903,000 Veterans' and 
beneficiaries' claims languish at VBA. At the Board of Veterans' 
Appeals, more than 256,000 disability claims remain mired, waiting an 
average of an additional four more years for a decision. In total, VA's 
disability claim backlog exceeds 1.1 million. In addition, more than 
four thousand cases remain on the U.S. Court of Appeals for Veterans 
Claims docket. When VA focuses attention on expediting new claims, VA 
exacerbates the already bad situation by increasing the error rate, 
leading to even more appeals and even longer delays. VBA appears to be 
grinding to a halt.
    Last Sunday, The New York Times reported the Oakland VA Regional 
Office takes an unconscionable 313 days to process a new claim 
(``Paperwork Buries Veterans' Disability Claims,'' Aaron Glantz, April 
15, 2012). That's more than ten months. A few years ago, VA was 
averaging five months. These significant VA delays seriously harm our 
Veterans who need access to VA healthcare and who need disability 
benefits to pay rent, put food on the table, and pay other important 
expenses.
    During testimony before the Senate Veterans' Affairs Committee on 
February 29, 2012, VA Secretary Eric Shinseki stated VA has seen a 48 
percent increase in claims filed since 2008. He expects the claim 
volume to increase by another 4 percent in 2013 to 1.25 million claims. 
This means an already bad situation continues deteriorating. This is 
unacceptable for our Veterans.
    In response to these disturbing statistics, and the significant 
impact delays and errors have on our Veterans' health and economic 
stability, VA sought out, and Congress wisely funded information 
technology (IT) programs to handle the tidal wave of more than one 
million claims flooding into VBA each year. NOVA applauds these moves 
to bring VBA into the 21st Century.
First Set of NOVA Recommendations: Access to Information
    NOVA urges Congress to enact legislation to improve and expedite 
the access by attorneys and agents accredited by VA to information 
about their Veteran clients. This is absolutely vital in order to 
protect the Constitutional rights of our Veterans.

       1. Access to Veterans' Electronic VA Records by Private 
Practitioners

    VBA's proposed e-Benefits system, also known as the Veterans 
Benefits Management System (VBMS), does not contain a component 
absolutely vital to our nation's Veterans and beneficiaries: full and 
immediate access to Veteran's claim records by their attorney or agent. 
This is the top complaint of NOVA members who work with Veterans every 
day. The lack of access undermines our Veterans' due process rights and 
property rights. See Cushman v. Shinseki, 576 F.3d 1290 (Fed. Cir. 
2009) (ruling that applicants for VBA benefits have a constitutionally 
protected property interest in their entitlement to those benefits).
    NOVA urges Congress to mandate that VA promptly provide advocates 
full access to paper and electronic claim records. What NOVA seeks is a 
``read only'' secure access to Veterans' records via the internet. Such 
a system is already in place at the Social Security Administration 
(SSA). SSA uses the ``Appointed Representative Suite of Services'' 
(ARSS) computer system. Information about legal representation is 
promptly entered into a beneficiary's records, and attorneys are 
provided with full and immediate access to SSA records on-line. SSA's 
ARSS system should serve as a model for VA to adopt in its new IT 
system that also preserves and protects Veterans' rights. In simple 
terms, if ARSS meets the standards for Health Insurance Portability and 
Accountability Act of 1996 (HIPAA; Public Law 104-191, 1996), then 
Congress should mandate a similar system for VA.

       2. Improving Access to VBA Points of Contact for Private 
Practitioners

    Under current VA rules (M21-1MR, Part I, Chapter 3, Section C, 14, 
``General Information on Fees''), VA's Attorney Fee Coordinators (AFC) 
at VBA Regional Offices serve as liaisons with attorneys and agents, 
many of whom are NOVA members. In most cases, AFCs are cooperative and 
helpful to NOVA members, providing prompt and accurate status updates 
on Veterans' claims. This is important because NOVA members 
representing Veterans are not co-located inside the VA Regional Office 
and do not have physical access to VBA staff, VBA computer systems, or 
VBA paper records. Our contact is limited to e-mails, FAX, and 
telephone, which is severely restricted by VA. Private practitioners 
currently have no assured access to VA claims processers, and long 
delays often result in cases where VA communicates with veteran 
advocates only via the U.S. Postal Service.
    However, there are harmful exceptions, where some AFCs are directed 
by their supervisors to refuse to provide attorneys and agents with 
critical information. The lack of accurate and timely information about 
the status of a Veteran's case significantly interferes with the 
ability of NOVA members to properly represent their clients. In many 
instances, AFCs provided inaccurate information or referred NOVA 
members to VBA's 1-800 phone number. NOVA understands AFCs often have 
several other job functions and lack the time and training to properly 
and promptly assist attorneys and agents. However, when an AFC does not 
provide information or provides incorrect or incomplete information, 
VA's actions further delay veterans' claims.
    NOVA urges Congress and VA to make it clear, through law or 
regulation, that AFCs are to assist accredited attorneys and agents by 
providing accurate and prompt status information on Veterans' claims. 
We believe the duties of AFCs should be limited to the role of 
assisting accredited attorneys and agents in all but the smallest 
Regional Offices.

       3. Entering Information Sent to VA in a Correct and Timely 
Manner

    Most large Veteran Service Organizations (VSO) staff are co-located 
inside VA Regional Offices. They often hand-deliver critical and time 
sensitive documents such as notices of disagreement and substantive 
appeals, and thus are able to ensure VA's databases are correctly 
updated and documents are associated with the Veterans' paper claims 
folder.
    In contrast, NOVA members are not co-located at VA Regional 
Offices. Therefore, NOVA members usually fax or mail POA and NOD forms 
to VA Regional Offices.
    Unfortunately, it is the widespread experience of NOVA members 
that, depending on the individual Regional Office, documents need to be 
resent because VA lost them - or did not update the system correctly 
when they were received so no one knows they are in the claims folder - 
anywhere from 25 to 75 percent of the time. This is especially critical 
since the mishandling of timely documents such as an appeal can 
potentially cause further delay of a Veteran's case.
    NOVA urges Congress to mandate that VA upgrade the training 
provided to mailroom employees, including offering incentives 
encouraging VA's mailroom staff to complete their jobs correctly the 
first time.

       4. Decreasing Blocked Calls and Incorrect Information Given by 
VA

    Calling VA's Toll-Free ``Inquiry Routing and Information System'' 
(IRIS), 800-827-1000, too often results in incomplete or incorrect 
information. As described above, many AFCs refer attorneys and agents 
to IRIS. The results are dismal, and in need of urgent correction. 
According to VA's Office of the Inspector General (OIG):

       In [Fiscal Year] 2009, individuals reached an agent 76 percent 
of the time. Of those reaching an agent, agents answered 72 percent of 
their questions correctly. When we combined VBA's reported data on 
access and accuracy, we concluded that any one call placed by a unique 
caller had a 49 percent chance of reaching an agent and getting the 
correct information.
    Even worse, VA employees appear hesitant to answer indirect 
questions, defined by OIG as questions ``that are not asked directly 
but are relevant to providing a complete answer'' (emphasis added). In 
those cases, VA staff only answered 60 percent of indirect questions 
accurately. This issue remains a chronic challenge for VA. For eight 
years, Veterans and their advocates remain unable to obtain correct 
answers from VA.
    Knight Ridder Newspapers reported on an internal VA report from 
2004 (``VA Help Lines Found to Regularly Provide Wrong Information,'' 
Chris Adams, December 30, 2005):

       According to an internal VA memo on the mystery-caller program 
that's buried deep in the department's Web site, 22 percent of the 
answers the callers got were ``completely incorrect,'' 23 percent were 
``minimally correct'' and 20 percent were ``partially correct.'' 
Nineteen percent of the answers were ``completely correct,'' and 16 
percent were ``mostly correct.''

    Veterans, attorneys, and agents deserve correct and complete 
answers. NOVA recommends that VA improve training and oversight with 
two goals in mind. First, VA needs to end the 24 percent of calls from 
Veterans to VA that are blocked. VA needs to increase the accuracy of 
both direct and indirect answers provided to veterans to well above 90 
percent.
Second Set of NOVA Recommendations: End Delays in Adjudicating Appeals
    In order to please Congress, VA has previously placed an emphasis 
on adjudicating original claims as quickly as possible. Although we 
applaud Congressional attention to this matter and the noticeable 
results in claim processing, these numbers have come at a steep cost. 
That cost is in the area of Veterans' appeals. Just to give an example 
of the chronic understaffing in this area, our firm heard from multiple 
Regional Offices that its appeals consist of more than 3,000 cases and 
are growing by the day. However, the ROs have only two or three 
Decision Review Officers (DRO) working on appeals. At those offices, we 
were told the wait for a Statement of the Case (SOC) to be issued 
following the submission of a Notice of Disagreement is ``at least 1100 
days.''
    Although a wait of more than three years is, by itself, 
inexcusable, what makes this wait worse is that Veterans' claims do not 
even get in line for a BVA decision until an SOC has been issued and 
the Veteran has filed a Substantive Appeal. BVA is currently working on 
cases with 2010 docket numbers. In practical terms, this means a 
Veteran who already waited three years for VA to issue a SOC, who then 
submits a Substantive Appeal, must wait an additional two years before 
BVA reviews the case.
    The final insult in all of this is that BVA is forced to remand 
many cases back to Regional Offices. (If the Veteran is not represented 
by a private practitioner, the Veteran's case is sent to the Appeals 
Management Center.) In theory, a Regional Office is supposed to provide 
``expedited'' treatment to the Veteran's case. However, in practice, 
the Veteran's claim goes to the back of the line and waits once again 
with the rest of the appeals. Chronic VA delay in processing Veterans' 
appeals harms our Veterans by denying them access to medical care and 
economic security. NOVA supports VBA's goals and intents of hiring more 
DROs, as they remain the most efficient way to fix the multiple errors 
found in the majority of rating decision issues.
    NOVA supports hiring more DROs to meet the increasing number of 
appeals handled at VA's Regional Offices. DROs should also be used for 
their intended purpose. However, DROs were recently tasked with 
handling hundreds of thousands of Vietnam War Veterans' disability 
claims for medical conditions associated with exposure to Agent Orange 
(Nehmer v. U.S. Department of Veterans Affairs, No. CV-86-6160). We 
understand nearly all Nehmer cases are resolved, and this should allow 
DROs to return to their original function. Unfortunately, most DROs are 
returning to enormous backlogs and heightened pressure to adjudicate 
cases quickly, without regard to accuracy.
Conclusion
    NOVA supports funding for VA initiatives to computerize VA's 
obsolete claims processing systems. NOVA believes our reasonable and 
practical recommendations to VA's initiatives, especially greater and 
faster access to Veterans' records and an end to VA's systemic delays, 
will result in our Veterans receiving more timely and accurate 
decisions from VA. NOVA offers to work with the Committee and VA to 
implement our recommendations.

                                 <F-dash>
                 Prepared Statement of Thomas J. Murphy
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on the important partnership between the 
Department of Veterans Affairs (VA) and the various national, state, 
and county Veterans Service Organizations (VSOs).
    As VA moves into the 21st Century, this collaboration establishes 
the foundation for providing Veterans with the benefits they have 
earned in a timely and equitable manner. This partnership focuses on 
assisting Veterans with filing disability claims and receiving 
appropriate compensation for service-connected diseases and injuries. 
Trained claims representatives from VA-recognized VSOs provide 
invaluable guidance to Veterans filing claims and work with employees 
of the Veterans Benefits Administration (VBA) to ensure that complete 
and accurate information is available to facilitate correct disability 
and compensation decisions. Office space is provided for these claims 
representatives in all VA regional office service centers, where they 
assist with evidence development, view decisions made by VBA employees 
, and counsel Veterans regarding claims and appeals.
Training
    To further the collaborative effort with VSO claims 
representatives, VBA established a training program and certification 
process for them. In 2008, the Training, Responsibility, Involvement, 
and Preparation of Claims (TRIP) program was introduced. The TRIP 
program was designed to improve overall service to Veterans, as well as 
improve claims processing timeliness, by instructing the 
representatives on the requirements for successful claim processing and 
familiarizing them with VBA computer systems. This web-based course 
offers multiple video lesson presentations followed by review 
questions. The course helps participants learn the information needed 
to pass a multiple-choice final examination. Participants have 45 days 
from the starting date to complete the course, which is accessible at 
any time. Successful completion of the program allows claims 
representatives to be certified and have read-only access to a number 
of claim processing-related electronic applications that follow the 
development and adjudication of Veterans' claims. To date, over 4,100 
service organization representatives have registered for the online 
course, and since 2008, 3,385 representatives have completed the course 
by passing the final exam. TRIP training is a critical part of VBA's 
goals to improve access and transparency to the disability claims 
process and thereby improve efficiency.
    In addition, under VA's accreditation regulations, VSOs are 
required to certify every five years that each of their accredited 
claims representatives continues to be of good character and reputation 
and has demonstrated an ability to represent claimants before VA. The 
VSOs must also certify that each accredited representative is either a 
member in good standing or a paid employee; is accredited and 
functioning as a representative of another recognized VSO; or, in the 
case of a county Veteran's service officer, is a paid county employee, 
has successfully completed an approved course of training and an 
examination, and will receive regular supervision or annual training to 
ensure continued qualification as a representative in the claim 
process.
Transformation
    As the Committee is aware, VBA has developed and is now 
implementing its Transformation Plan, a series of tightly integrated 
people, process, and technology initiatives designed to improve 
Veterans' access, eliminate the claims backlog, and achieve our goal of 
processing all claims within 125 days with 98 percent accuracy in 2015. 
We are confident that we are on the right path to deliver more timely 
and accurate benefits decisions to our Nation's Veterans. VSO 
involvement in our Transformation Plan is extremely important, 
especially as we shift from a paper-based to a paperless electronic 
process system. VBA is committed to providing service organization 
representatives with the tools to assist with this transformation.
    VBA is developing an electronic Stakeholder Enterprise Portal 
(SEP). This portal will enhance stakeholder involvement in the claims 
process in a secure environment with identity access tools. VSOs will 
be able to access SEP, which will facilitate the ability to assist 
Veterans with online completion of VA form 21-22, Appointment of 
Veterans Service Organization as Claimant's Representative and the 
Veteran's online application for compensation, known as VONAPP Direct 
Connect (VDC).
    Additionally, VBA is working with service organization 
representatives to implement the fully developed claims (FDC) 
initiative. The Veterans' Benefits Improvement Act of 2008, Public Law 
110-389, section 221(a), directed VA to carry out a one-year pilot 
program to assess the feasibility and advisability of expeditiously 
processing fully developed compensation and pension claims within 90 
days after receipt of the claim. Based on the favorable results from 
the pilot, VA expanded and fully implemented the program across all 
regional offices under existing authority of 38 U.S.C. Sec.  501(a)(4), 
which provides the Secretary's authority to prescribe rules and 
regulations to include establishing the manner in which claims are 
adjudicated. Claims representatives are critical to the FDC initiative 
as they assist in gathering supporting evidence for a disability claim 
and helping the Veteran to certify that no additional evidence is 
necessary to make a decision on the claim.
    Service organization representatives are an integral part of VBA's 
Transformation Plan because of their close personal contact with 
Veterans. VBA constantly seeks to improve the claims process, and 
service organization representatives serve an important role in that 
effort.
    This concludes my testimony, and I look forward to answering your 
questions.

                                 <F-dash>
                   Materials Submitted For The Record
                     PARALYZED VETERANS OF AMERICA
    Chairman Miller, Ranking Member Filner, and members of the 
Committee, Paralyzed Veterans of America (PVA) is pleased to present 
information regarding how PVA claims representatives work to assist our 
nation's veterans to obtain the benefits that they have earned and 
deserve for their sacrifices for America. PVA takes great pride in the 
competence, professionalism and dedication of these individuals who 
spend countless hours training and working to ensure they can 
accurately represent a veteran and his or her family.
    Since 1971, PVA's National Service Program has distinguished itself 
by readying service officers for the more complex aspects of VA claims 
work. This includes an in-depth understanding of Special Monthly 
Compensation, which often entails assessment of co-existing 
disabilities and overlapping conditions against the VA combined rating 
table in order to arrive at an accurate disability rating.
    PVA's intensive training program indoctrinates every service 
officer into the organization with a comprehensive lesson on the 
history, evolution, and current state of the VA spinal cord injury 
system of care. The more traditional aspects of our National Service 
Officer (NSO) Candidate Training curriculum begin with teaching the 
fundamentals of VA claims adjudication: eligibility and application for 
compensation, pension, education, insurance, survivor, burial, and 
ancillary benefits. The program then covers health care benefits and 
eligibility, including clinical appeals, beneficiary travel, and 
prosthetics equipment. At present, to even better improve the quality 
and competence of our NSOs, the program is undergoing a transition from 
an 18-month distance-learning curriculum to a paperless 12-month on-
line platform that offers instant feedback and real-time content 
updates, which ensure the student is being tested on the most current 
and relevant information possible in an ever-transforming VA 
environment.
    During the process, all candidates are mentored by an office 
supervisor, Area Manager, or Region Director, and given on-the-job 
training objectives that demonstrate readiness for the next phase of 
learning. Forthcoming training initiatives include the addition of a 
capstone module where NSO Candidates must demonstrate proficiency in 
case review and oral/written presentation, based on real case studies, 
before graduating from the program and working independently. 
Additionally, we have added a requirement that all candidates who are 
being considered for promotion to the rank of Senior National Service 
Officer must successfully complete a one-week residency at the PVA 
National Appeals Office. The main goal of PVA's in-depth training and 
evaluation process is to ensure the greatest accuracy of claims 
processing, a function critical to the reduction of the significant 
claims backlog currently facing VA.
    While the initial training and requirements build a strong 
foundation for a successful process, to maintain their expertise, all 
field staff, regardless of rank, must undergo continuing education in 
order to remain accredited. One technique that satisfies this 
requirement is PVA's annual Continuing Education Seminar. During this 
training event, PVA instructs NSOs in legislation/regulatory changes, 
provides refresher training, and hear from VA leadership who are 
invited to speak directly to PVA NSOs. PVA also conducts quarterly 
regional training via teleconference. These programs ensure NSOs have 
the most up-to-date information and benefit tremendously from the 
interaction between the NSOs who share their own stories of successes 
and challenges they have faced.
    The PVA program's emphasis on spinal cord injury and its effects, 
which can prove esoteric even to some in the health care profession, 
conditions PVA NSOs to confront the complexities involved in resolving 
the ambiguities and uncertainties that typify catastrophic disability 
claims. For this reason, our sister Veteran Service Organizations have 
been known to defer to PVA for cases presenting complex disability 
pictures, where Special Monthly Compensation and entitlement to 
ancillary benefits (e.g. Specially Adapted Housing, Adaptive Auto 
Equipment, annual clothing allowance, etc.) are at issue.
    This time-tested approach to training has created an excellence-
driven culture within PVA's Veterans Benefits Department: one that 
prides itself on unrivaled quality in the development of disability 
claims. Senior Benefits Advocates and hospital-based National Service 
Officers receive an intense, week-long indoctrination into medical 
monitoring and health care advocacy during AMAT (Advance Medical 
Advocacy Training) in addition to the initial NSO Candidate Program and 
annual Continuing Education Program attended by all accredited 
representatives.
    To date, our National Service Program has secured over $1.5 billion 
in annual and retroactive awards for clients. This fiscal year alone, 
our field staff has filed over 14,000 issues and attained over $135 
million in awards thus far. Also, our staff has claimed over 580 
victories on behalf of clients resulting in significant retroactive 
awards totaling $25,000 or more this year. Finally, our Appeals Office 
currently outpaces the Board average allowance rate by nearly 5 
percent, and has seen fewer denials by a rate of nearly 7 percent.
    In sum, we do not view these successes as the product of mere good 
fortune or solid reputation. We achieve results by planting the seeds 
of higher expectation in our candidates early and reinforcing that 
standard at every stage of the service officer's development.
    PVA appreciates the interest and effort that has been given to 
updating and modernizing the VA disability system in recent years. 
However, it is important to note that success in reforming the VA 
claims processing system will require the VBA to institutionalize the 
ongoing transformation process at all levels to develop a work culture 
that values, measures, reports and rewards quality and accuracy over 
speed and production. This has been the approach used by PVA in 
training NSOs.
    The VBA is entering its third year of its most recent effort to 
transform an outdated, inefficient, and inadequate claims-processing 
system into a modern, automated, rules-based and paperless system. VBA 
has struggled for decades to provide timely and accurate decisions on 
claims for veterans' benefits, especially disability compensation. 
However, despite repeated prior attempts to reform the system, VBA has 
never been able to reach the goals it has set for itself. Whether VBA 
can be successful this time depends to a large extent on whether it can 
complete a cultural shift away from focusing on speed and production to 
a business culture of quality and accuracy.
    There have been some encouraging steps towards such a cultural 
shift over the past two years; however, this early progress must be 
institutionalized in order to create the long term stability needed to 
eliminate the current backlog of claims, and more importantly, prevent 
such a backlog from returning in the future. VBA must change the way it 
measures and reports the work it performs as well as the way in which 
employees are rewarded, in order to reflect the principle that quality 
and accuracy are at least as important as speed and production. 
Ensuring that decisions are correct the first time will, over time, 
increase public confidence in the VA and decrease appeals.
    One of the more positive steps that has occurred as a part of VBA's 
transformation has been the open and candid attitude of VBA's 
leadership over the past several years, particularly progress towards 
developing a new partnership between VBA and VSOs who assist veterans 
in filing claims. PVA applauds these efforts and this hearing is an 
example of greater encouragement of these efforts. VSOs have vast 
experience and expertise in claims processing, with local and national 
service officers holding power of attorney for hundreds of thousands of 
veterans and their families. As indicated by PVA's testimony, VSOs can 
make VBA's job easier by helping veterans prepare and submit better 
claims, thereby requiring less time and resources to develop and 
adjudicate them. Veterans Service Organizations have been increasingly 
consulted on a number of the new initiatives underway at VBA, including 
Disability Benefit Questionnaires (DBQs), Veterans Benefit Management 
System (VBMS), and many, but not all business process pilots, including 
the I-LAB at the Indianapolis VARO. Building upon these efforts, VBA 
must continue to reach out to its VSO partners, not just at central 
office, but also at each of the 57 Regional Offices.
    Ultimately, PVA remains hopeful that the VA may finally be making 
real progress towards meaningful reform to the claims process that will 
ensure veterans receive accurate decisions the first time. VA must be 
more consistent in the application of its own regulations and it is up 
to VA's senior leaders in the field to ensure training standards are 
enforced and to eliminate variability in the claims adjudication 
process to the greatest extent possible. A rater in San Diego should 
not have a different standard for assessing ``loss of use'' than a 
rater in Boston and conflicting medical opinions should not 
disproportionately warrant denial of a claim, particularly when 
reasonable doubt provisions compel the rater to find in favor of the 
claimant. Predictability in the process is the key to fixing this. It 
will be incumbent upon the Committee to conduct substantive oversight 
on VBA's activities to ensure that the primary objective--accurate 
decisions the first time--is being achieved.
    PVA appreciates the opportunity to outline the process PVA uses to 
ensure our veterans seeking claims with VA present the most accurate 
information the first time. We cannot emphasize enough that the close 
integration and cooperation between VA and VSO veterans' 
representatives is critical to providing the best services for our 
veterans. PVA looks forward to working with the Committee to ensure 
that veterans receive the best possible determination for benefits in 
the most efficient manner possible. Thank you.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.
                            Fiscal Year 2010
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$287,992.

                                 <all>

</pre></body></html>
